<html>
<title> - IMPLEMENTING THE FEDERAL ASSETS SALE AND TRANSFER ACT (FASTA): MAXIMIZING TAXPAYER RETURNS AND REDUCING WASTE IN REAL ESTATE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    IMPLEMENTING THE FEDERAL ASSETS SALE AND TRANSFER ACT (FASTA): 
     MAXIMIZING TAXPAYER RETURNS AND REDUCING WASTE IN REAL ESTATE

=======================================================================

                                (115-20)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-373 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                            
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  HENRY C. ``HANK'' JOHNSON, Jr., 
BARBARA COMSTOCK, Virginia               Georgia
MIKE BOST, Illinois                  ELEANOR HOLMES NORTON, District of 
LLOYD SMUCKER, Pennsylvania              Columbia
JOHN J. FASO, New York               ALBIO SIRES, New Jersey
A. DREW FERGUSON IV, Georgia,        GRACE F. NAPOLITANO, California
  Vice Chair                         MICHAEL E. CAPUANO, Massachusetts
BRIAN J. MAST, Florida               PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               WITNESSES
                                Panel 1

Timothy O. Horne, Acting Administrator, U.S. General Services 
  Administration:

    Testimony....................................................     5
    Prepared statement...........................................    52
    Responses to questions for the record from the following 
      Representatives:

        Hon. Lou Barletta of Pennsylvania........................    55
        Hon. Peter A. DeFazio of Oregon..........................    59
        Hon. Jeff Denham of California...........................    61
        Hon. Barbara Comstock of Virginia........................    63
C. Brett Simms, Director, Capital Asset Management Service, U.S. 
  Department of Veterans Affairs:

    Testimony....................................................     7
    Prepared statement...........................................    66
    Responses to questions for the record from Hon. Jeff Denham, 
      a Representative in Congress from the State of California..    72
Kevin B. Acklin, Chief of Staff, Office of Mayor William Peduto, 
  City of Pittsburgh, Pennsylvania:

    Testimony....................................................     9
    Prepared statement...........................................    73

                                Panel 2

Richard W. Painter, Professor of Law:

    Testimony....................................................    41
    Prepared statement...........................................    75

                       SUBMISSIONS FOR THE RECORD

Submission of the following materials by Hon. Lou Barletta, a 
  Representative in Congress from the Commonwealth of 
  Pennsylvania:

    Blog post of March 24, 2017, ``Did the GSA Properly Find 
      Trump's `Full Compliance' With the D.C. Hotel Lease?'' by 
      Andy Grewal, Notice & Comment, a blog from the Yale Journal 
      on Regulation and the ABA Section of Administrative Law and 
      Regulatory Practice........................................    82
    Report, ``The Foreign Emoluments Clause and the Chief 
      Executive,'' No. 2017-12, June 2017, by Andy S. Grewal, 
      University of Iowa, College of Law.........................    86
    Article, ``Business Transactions and President Trump's 
      `Emoluments' Problem,'' by Seth Barrett Tillman, Harvard 
      Journal of Law & Public Policy, Vol. 40, No. 3.............    86
    Letter of September 16, 1974, from Hon. Howard W. Cannon, 
      Chairman, U.S. Senate Committee on Rules and 
      Administration, to Hon. William B. Saxbe, Attorney General 
      of the United States, U.S. Department of Justice...........    86
    Response letter of September 20, 1974, from Hon. Laurence H. 
      Silberman, Acting Attorney General, U.S. Department of 
      Justice, to Hon. Howard W. Cannon, Chairman, U.S. Senate 
      Committee on Rules and Administration......................    86
    Written statement of the Associated General Contractors of 
      America, May 3, 2017.......................................    87
Submission of the following materials by Hon. Henry C. ``Hank'' 
  Johnson, Jr., a Representative in Congress from the State of 
  Georgia:

    Email correspondence between Kevin M. Terry, Senior Realty 
      Contracting Officer, U.S. General Services Administration, 
      the Trump Organization, et al..............................    94
    Article of November 11, 2016, ``Federal Agency Doing Business 
      With Trump Is Trying To Avoid a Massive Conflict of 
      Interest,'' by Aram Roston, BuzzFeed.......................   110
    Letter and exhibits of March 23, 2017, from Kevin M. Terry, 
      Contracting Officer, U.S. General Services Administration, 
      to Donald J. Trump, Jr., Trump Old Post Office LLC, c/o the 
      Trump Organization.........................................   112
    Letter of February 10, 2017, from Kevin M. Terry, Contracting 
      Officer, U.S. General Services Administration, to Donald J. 
      Trump, Jr., Trump Old Post Office LLC, c/o the Trump 
      Organization...............................................   113
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
    IMPLEMENTING THE FEDERAL ASSETS SALE AND TRANSFER ACT (FASTA): 
     MAXIMIZING TAXPAYER RETURNS AND REDUCING WASTE IN REAL ESTATE

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                  House of Representatives,
              Subcommittee on Economic Development,
         Public Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167 Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The subcommittee will come to order.
    Thank you for being here today. I called this hearing 
because I wanted to ensure Chairman Denham's bill, the Federal 
Assets Sale and Transfer Act, or FASTA, which will cut waste 
and get rid of properties faster, is a complete success.
    During a recent visit to Pittsburgh, I was reminded of the 
importance of this legislation. The Pittsburgh VA facility is a 
prime example as to why FASTA was needed. This 160-acre 
facility was closed back in 2013, but only recently reported as 
excess by the VA.
    The city of Pittsburgh currently has dozens of law 
enforcement and emergency management functions scattered across 
the city on very valuable properties that could be better used 
to drive economic growth and jobs. If acquired by the city, the 
vacant VA facility would encourage economic development by 
allowing the city to move and consolidate these scattered 
functions to one location.
    I personally toured this facility and know the longer it 
sits vacant the more it will deteriorate. So far this fiscal 
year, the Federal taxpayer has spent at least $300,000 to 
simply maintain this vacant property. You would think the 
Federal Government would have a procedure in place to quickly 
dispose of this property.
    Unfortunately, the Federal process is cumbersome and 
costly. What would take a short time to get done in the private 
sector takes years in the Federal Government. As a result, the 
Federal Government sits on vacant and underutilized, high-value 
assets. If sold and redeveloped, these properties would spur 
economic development and create jobs in the communities where 
they are located.
    A recent example is the Volpe National Transportation 
Systems Center in Cambridge, Massachusetts. The DOT facility 
sits on a small portion of a 14-acre site, walking distance 
from downtown Boston and next to MIT. That property is now 
going to be redeveloped in a deal benefitting the Federal 
taxpayer by $750 million.
    The DOT will get a new building. MIT will redevelop the 
property, and the local community is looking forward to the 
economic growth that it will generate.
    To facilitate more projects like this, FASTA waives many of 
the hurdles that prevent the Federal Government from selling 
property quickly and provides a funding mechanism to free up 
even more properties through consolidation. And GSA's role in 
this is critical.
    For this to work, the Board created in FASTA must have 
resources to identify these opportunities and develop 
recommendations. To that end, FASTA authorizes the Board to use 
GSA contracts to hire real estate experts. FASTA authorizes GSA 
to detail staff and provide other support to the Board. For 
FASTA to be successful, these and other resources are critical 
in helping the Board carry out its duties and develop 
recommendations to sell and redevelop properties.
    I want to recognize and thank Chairman Denham of our 
Subcommittee on Railroads, Pipelines, and Hazardous Materials 
for his leadership in getting the Federal Assets Sale and 
Transfer Act across the finish line last year. I know he worked 
tirelessly with Members on both sides of the aisle to get FASTA 
enacted into law.
    FASTA, if implemented correctly, will cut waste, save 
taxpayer money, and spur economic development and jobs. I hope 
today to learn where we are on disposing of the VA property I 
toured in Pittsburgh and what GSA is doing to support the 
implementation of FASTA.
    I want to thank you all for being here.
    I ask unanimous consent that members not on this 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    I now call on the ranking member of the subcommittee, Mr. 
Johnson, for a brief opening statement.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    And I want to thank the chairman for holding this hearing 
today. It has the stated topic of implementation of the Federal 
Assets Sale and Transfer Act, FASTA, which is a worthy topic. 
This is not, however, the most pressing issue before this 
subcommittee as it relates to the GSA.
    I intend to address some of the issues arising from the 
lease that is held by President Trump on the Old Post Office.
    On March 24th, 2017, GSA released a letter from a GSA 
contracting officer asserting that the Trump Old Post Office 
LLC is in full compliance with its lease agreement. I 
categorically disagree with this conclusion.
    The Trump Old Post Office LLC is a corporation completely 
owned and controlled by President Trump and his three oldest 
children. The lease agreement explicitly prohibits any elected 
official of the U.S. Government from serving as a lessee or 
from obtaining any benefit that may arise from the lease.
    Specifically, the lease states that ``no member or delegate 
to Congress, or elected official of the Government of the 
United States or the Government of the District of Columbia, 
shall be admitted to any share or part of this Lease, or to any 
benefit that may arise therefrom.''
    The last time I checked, the President of the United States 
is an elected official. The GSA contracting officer provided no 
clear legal rationale for his decision on behalf of the 
American taxpayer. In fact, due to a Freedom of Information Act 
request, we now know that as early as November 11, 2016, this 
same key GSA contracting official was casting as, quote, 
nonsense, end quote, news reports detailing the conflict of 
interest for the Old Post Office Building.
    This determination was presumably before any legal analysis 
by the Office of General Counsel of GSA or the Department of 
Justice.
    So we are faced with the situation where GSA is negotiating 
with President Trump's two sons, Donald Trump, Jr., and Eric 
Trump, on the meaning of the plain language of the Post Office 
lease agreement.
    After repeated requests by the Trump Organization, GSA is 
now twisting the word ``benefit.'' Forget about the traditional 
benefit that Trump controlled. GSA now wants us to believe that 
as long as the Trump Organization creates layers of corporate 
shells and reinvests the profits of the lease agreement back 
into the hotel while President Trump occupies the Oval Office 
and delays receiving his profits until after his Presidency 
concludes, then there is no benefit.
    Although GSA and the Trump Old Post Office LLC have claimed 
that the President is not benefitting from the lease, he is 
clearly benefitting from the lease. The President has listed 
the loan he took from Deutsche Bank to renovate the Old Post 
Office Building as a personal liability. Under the new 
operating agreement with the Trump Old Post Office LLC, the 
President may use his share of the profits to back the Deutsche 
Bank loan that he lists as a personal liability in his 
financial disclosure.
    It is clear that no matter how many Russian nesting dolls 
President Trump may utilize to attempt to conceal his 
improprieties, it remains inescapable that President Trump is 
still gaining a significant benefit by doing business with the 
GSA, an agency that he controls, an agency that he is supposed 
to be leading on behalf of the American taxpayers.
    It has also become clear that this private business being 
run by the Trump family in the Old Post Office Building has 
been a profitable business. Recent financial disclosures from 
both President Trump and his daughter, Ivanka Trump, a White 
House aide, showed that they have received over $20 million in 
profits from the Trump International Hotel, operating in the 
Old Post Office Building. It just opened in October, soft 
opening, and for the first 2 months, I believe, they indicated 
that there was a deficit. So that means over the last 8 months, 
profits of $20 million have accumulated.
    Because the Trump administration has refused to release 
financial documents related to the Old Post Office, we have no 
assurances that GSA has received a percentage of the profits 
that it is entitled to under the lease agreement. There are no 
assurances that all of the agreements between the Trump 
Organization and its vendors are arm's-length transactions and 
not designed to depress reportable profits.
    All of these unanswered questions fall under a cloud of 
conflict of interest. This committee needs to fulfill its 
responsibilities and conduct its own bipartisan, independent 
review of this lease agreement, and I am glad we are getting 
started on that today.
    We need to assure taxpayers that President Trump is not 
enriching himself while serving in the ultimate position of 
public trust. As ranking member of this subcommittee, I 
consider it my top priority, and I look forward to working with 
the other members of this committee to resolve this issue 
satisfactorily.
    And with that I yield back.
    Mr. Barletta. Thank you.
    I now call on the ranking member of the full committee, Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for this 
hearing.
    Obviously, I have a longstanding concern about the proper 
disposition at full value of surplus Federal assets, and I am 
pleased that we had legislation in the last Congress 
facilitating that, and I am pleased we are having the hearing 
here today.
    But I do want to echo the concerns of the ranking member of 
the subcommittee. There has been very unprofessional conduct at 
GSA in recent months. I have sent five inquiries regarding the 
terms of this lease and have had either incomplete or no 
responses.
    The ranking member mentioned this email to an official 
associated with President Trump. We are not certain who it was 
on November 11th, but having a contracting officer saying this 
very complicated arrangement which involved both the Emoluments 
Clause and an explicit part of the lease is nonsense, and then 
he goes on to invite the same official out for coffee and talks 
about his recent personal trip.
    Also, GSA's General Counsel was included and copied on this 
and took no action. I would find that extraordinary that this 
person was not recused from any sort of judgment regarding this 
complicated matter, given that email, and would bring that to 
the attention of the acting head of GSA.
    Given the stonewalling from GSA, given the serious concerns 
outlined by the ranking subcommittee member regarding the 
explicit terms of the lease, I have just got to repeat it. ``No 
member or delegate of Congress, or elected official of the 
Government of the United States or the Government of the 
District of Columbia, shall be admitted to any share or part of 
this Lease, or to any benefit that may arise therefrom.''
    But somehow GSA has determined the fact that the President 
is a large majority owner and that he owes personally a debt to 
Deutsche Bank, which could be paid off by profits, and of 
course, there is a profit-sharing arrangement between the 
United States Government and the Trump Organization regarding 
this hotel, they are refusing to produce those documents to 
show that the Government, for which, Mr. Horne, I believe you 
do work, is getting its proper share of the profits and 
benefits from this lease.
    Essentially, we have a situation where the President is 
both the landlord and the tenant, and beyond that, there are 
even more serious issues regarding the Emoluments Clause of the 
Constitution.
    There have been numerous news stories that foreign 
governments, particularly the Saudis and others, are steering 
business to the Trump Hotel to curry favor and, again, lacking 
any transparency regarding the profits, we do not know what the 
magnitude of those profits are, and that raises a very, very 
serious concern.
    So today we are introducing a resolution of inquiry that 
asks for three things:
    Guidance and direction to the Acting Administrator of GSA 
regarding responses to requests for information from Members of 
Congress. Apparently, Mr. Horne has been told to stonewall the 
elected representatives of the people of the United States.
    All documents associated with the Trump Hotel lease 
agreement between the Government and the Trump Organization.
    And all legal memoranda or opinions regarding the lease 
agreement, if there are any, or if it has all just been made up 
by the guy who said that this was nonsense. His determination 
in a letter is that since the money can only be used by the 
sons to pay down the debts of the President or to enhance the 
assets of the President, the President is not a beneficiary.
    And, of course, if the hotel were sold, they go on to say, 
yes, well, the President would get credited his 77 percent 
share, but he is not a beneficiary. Pretty extraordinary stuff 
pretty simply resolved by the President divesting himself of 
this particular investment and this lease, which he apparently 
has violated.
    So I am pleased we are here today. I hope that we can hear 
some straight answers from Mr. Horne.
    Thank you, Mr. Chairman.
    Mr. Barletta. Today we have two panels. On our first panel, 
we have Mr. Tim Horne, Acting Administrator, U.S. General 
Services Administration.
    Mr. Brett Simms, Director of the Capital Asset Management 
Service, United States Department of Veterans Affairs.
    And Mr. Kevin Acklin, chief of staff, the Office of Mayor 
William Peduto, city of Pittsburgh, Pennsylvania.
    Members are advised to limit questions directed to Mr. 
Horne and Mr. Simms to factual matters of a non-political 
nature. They are both career employees at their respective 
agencies and will not be able to answer such questions.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    For our witnesses, since your written testimony has been 
made a part of the record, the subcommittee would request that 
you limit your oral testimony to 5 minutes.
    Mr. Horne, you may proceed.

   TESTIMONY OF TIMOTHY O. HORNE, ACTING ADMINISTRATOR, U.S. 
  GENERAL SERVICES ADMINISTRATION; C. BRETT SIMMS, DIRECTOR, 
 CAPITAL ASSET MANAGEMENT SERVICE, U.S. DEPARTMENT OF VETERANS 
 AFFAIRS; AND KEVIN B. ACKLIN, CHIEF OF STAFF, OFFICE OF MAYOR 
        WILLIAM PEDUTO, CITY OF PITTSBURGH, PENNSYLVANIA

    Mr. Horne. Good morning, Chairman Barletta, Ranking Member 
Johnson, and members of the committee.
    My name is Tim Horne and I am the Acting Administrator of 
the U.S. General Services Administration.
    Thank you for the opportunity to testify today on GSA's 
management of Federal real property and the implementation of 
the Federal Assets Sale and Transfer Act of 2016.
    I have been a GSA employee for almost 25 years, starting 
off as a facilities management intern at the Denver Federal 
Center. Later in my career, I held the position of Federal 
Acquisition Service Regional Commissioner, and I served as the 
Public Buildings Service Regional Commissioner for GSA's Rocky 
Mountain Region.
    In 2008, I supported then-President-elect Obama as the 
Director of the Presidential Transition Support Team. I served 
as the Federal Transition Coordinator for the most recent 
Presidential transition before being appointed as Acting 
Administrator.
    GSA is working with agencies on multiple fronts to reduce 
the Federal Government's real estate footprint. GSA agrees with 
members of this committee about the importance of and is 
committed to the identification, consolidation, and disposal of 
nonperforming and vacant Federal real property.
    Last year, Congress passed the FASTA to encourage 
landholding agencies to reduce the number of unneeded and 
underutilized properties from their inventory. GSA strongly 
supports FASTA, and we view this as a valuable tool to 
incentivize agencies to be more efficient and effective in 
their management of real property.
    It also improves the Federal real property disposal process 
by establishing an independent Board to make recommendations 
for property disposals, along with other ways to reduce the 
costs of Federal real property holdings.
    Further, the act streamlines the process for identifying 
and disposing of properties to benefit the homeless.
    To help implement the FASTA, GSA, working with the Office 
of Management and Budget, conducted two data calls to build a 
more robust Federal Real Property Profile and develop 
recommendations for disposal and consolidation projects to put 
forward.
    The act expanded the universe of 24 executive branch 
agencies that previously reported real property data to GSA. A 
total of 51 agencies have responded to the data calls.
    Additionally, to support the implementation of the Board's 
recommendations, the President's budget requests $40 million in 
2018 to be deposited into the Asset Proceeds and Space 
Management Fund. These funds will support the independent 
activities of the Board and will be managed as a stand-alone 
account.
    Once the Board is in place, GSA looks forward to working 
with the chairman and Board members, as well as OMB, to 
implement the act.
    As you know, GSA administers one of the largest and most 
diversified public real estate portfolios in the country. The 
agency's portfolio consists of 371 million rentable square feet 
in 8,700 active assets across the United States. The owned 
inventory accounts for approximately 49 percent of the 
portfolio, and the leased inventory is approximately 51 percent 
of the portfolio.
    GSA is taking an aggressive approach to improving 
utilization of Federal property and reducing our unneeded or 
underutilized assets. From 2012 through 2016, GSA has disposed 
of 976 properties, both those managed by GSA as well as other 
landholding agencies, generating $273 million in gross sales 
proceeds. The bulk of the disposals were executed through 
public sales.
    Other property disposals involved negotiated sales, public 
benefit conveyances, and Federal transfers. For GSA-managed 
properties, between 2012 and 2016, GSA disposed of 66 
properties, generating $88 million in gross proceeds.
    Earlier this year, GSA disposed of the Cotton Annex 
building in Washington, DC. The $30 million sale of this 
118,000-square-foot facility, which previously housed the U.S. 
Department of Agriculture, resulted in a cost avoidance to the 
Federal Government of almost $7 million over 2 years because 
GSA no longer needs to make long-term repairs and upgrades to 
the facility.
    However, the Federal Government is not the only participant 
and benefactor in this process. State, local, and nonprofit 
partners play a vital role in helping GSA identify and unlock 
an asset's value and benefit. For example, through a negotiated 
sale, GSA sold underutilized acreage at the Denver Federal 
Center to the city of Lakewood, Colorado. The city then 
developed the property, which now contains a transit hub and 
hospital that serve the citizens of the surrounding area.
    This example showcases that Federal and non-Federal 
stakeholders benefit when we collaborate together during the 
disposal process.
    In closing, GSA is committed to carrying out its mission of 
delivering the best value in real estate. When GSA and other 
Federal agencies more effectively and efficiently manage their 
real property inventory, we realize improved mission and 
workforce outcomes, while reducing housing and related costs. 
These savings can be invested back into agencies' mission-
critical work.
    I thank the committee for the opportunity to testify today 
and I look forward to answering your questions.
    Mr. Barletta. Thank you for your testimony, Mr. Horne.
    Mr. Simms, you may proceed.
    Mr. Simms. Good morning, Chairman Barletta, Ranking Member 
Johnson, and members of the committee. I am happy to be here 
today to discuss VA's real property portfolio and our ongoing 
efforts to reuse or dispose of vacant property.
    VA's mission is distinct compared to other Federal 
agencies. We operate the largest integrated healthcare system 
in the Nation, with more than 1,700 hospitals, clinics, and 
other facilities, as well as a variety of benefits and 
services, and operates 135 national cemeteries nationwide.
    Our portfolio consists of approximately 180 million owned 
and leased square feet and is one of the largest in Federal 
Government. Unlike many Federal agencies, we own the majority 
of our portfolio, about 86 percent.
    Our portfolio is also aging. The average age of VA's owned 
buildings is approaching 60 years old.
    Lastly, most of our owned assets are large campuses that 
consist of many different buildings and structures. As you can 
imagine, managing a portfolio of this size and age is complex 
and takes a significant amount of resources.
    In light of VA's aging infrastructure and an estimated $50 
billion capital need over the next 10 years, Secretary Shulkin 
has made it one of his top five priorities to modernize VA 
systems.
    One of the ways VA is working to support his priority is by 
getting rid of buildings that are no longer needed to support 
our mission. We recently identified 430 individual vacant 
buildings, totaling 5.9 million gross square feet, across 
campuses nationwide. It costs VA about $7 million annually to 
operate and maintain these buildings and we want to be able to 
redirect those resources to serve veterans.
    My office, in collaboration with other VA experts, is 
leading the effort to initiate disposal or reuse actions for 
these 430 vacant buildings over the next 24 months. These 
buildings have varying characteristics, including historical 
status and environmental concerns that impact disposal and 
reuse options.
    Our next steps will be to begin performing due diligence, 
starting with evaluating for potential reuse. Once due 
diligence is completed and options are evaluated, disposal or 
reuse transactions would be initiated.
    While we are working on an aggressive timeline to address 
our vacant buildings, we do anticipate certain impediments that 
might slow down but not stop the process. Some examples of 
items that can impact our timelines include: compliance with 
the National Historic Preservation Act, balancing funding 
between disposal and operational needs, National Environmental 
Policy Act compliance, the location and conditions of the 
buildings on the campus, and stakeholder opposition to the 
disposal or reuse.
    While challenges do exist, we have made progress reducing 
our vacant and underutilized building footprint. Since 2004, VA 
has disposed or reused 1,059 assets totaling approximately 8.3 
million gross square feet and 932 acres.
    One of VA's most successful asset management tools is its 
enhanced-use lease, or EUL, authority. EUL allows VA to 
outlease assets to private and public-sector entities to 
repurpose for supportive housing for homeless veterans. The 
program has provided significant benefits in terms of cost 
avoidance, improved facilities, increased healthcare services, 
creation of jobs, and increased tax revenues for local 
communities.
    Approximately 4.5 million square feet have been outleased, 
resulting in over 2,700 operational housing units for homeless 
and at-risk veterans.
    VA previously had broader EUL authority that allowed for 
mixed use redevelopment beyond housing that was consistent with 
VA's mission and operations. While the broader authority lapsed 
in December 2011, VA will be submitting draft legislation to 
Congress to expand the scope of the EUL authority to allow 
greater reuse flexibility and improve services for veterans.
    VA will also leverage the Federal Assets Sale and Transfer 
Act of 2016 as an additional vehicle to reduce unneeded and 
underutilized properties from our inventory. In April 2017, we 
submitted to GSA recommendations regarding properties that no 
longer met our needs and potentially could be sold for 
proceeds, disposed, or were candidates for consolidation.
    We identified 15 sites consisting of 551 acres and 2.3 
million square feet. VA believes this is a robust submission 
and includes properties with redevelopment opportunities.
    VA also completed the data call for real property inventory 
information as required by the FAST Act. VA looks forward to 
continuing work with GSA and OMB on this and future FAST Act 
submissions.
    To summarize, VA has a complex real estate portfolio and 
seeks to maintain an optimal mix of investments to care for our 
Nation's veterans. The VA welcomes new or expanded tools, 
including the FAST Act, to improve the effectiveness of our 
portfolio and where possible reduce waste and save taxpayer 
dollars.
    Mr. Chairman, Ranking Member, and members of the committee, 
this concludes my statement. Thank you for the opportunity to 
testify today. I would be happy to respond to any questions you 
have.
    Mr. Barletta. Thank you for your testimony, Mr. Simms.
    Mr. Acklin, you may proceed.
    Mr. Acklin. Good morning, Mr. Chairman, Ranking Member 
Johnson, and members of the committee. It's an honor to be with 
you.
    My name is Kevin Acklin. I am chief of staff to Mayor 
William Peduto of Pittsburgh. I also chair our Redevelopment 
Authority. So I'm the mayor's right arm or left arm, depending 
on which side of the aisle you are on on economic development.
    For purposes of today, I am just glad I did not stay last 
night at the Trump Hotel, I suppose.
    So a little bit about the history of Pittsburgh. I am very 
proud to be here on behalf of our city. When you think about 
where we are as a city today, I grew up in Pittsburgh. I am 
actually a third generation worker for the city of Pittsburgh.
    Before you call me a political hack, my grandfather was a 
battalion chief in the city. My uncle was a fire captain, and 
my brother is a cop. So we're a typical Irish Catholic family. 
I was supposed to be the priest in the family, but instead went 
to law school and was a private equity lawyer; went to Boston; 
moved back to Pittsburgh.
    And I came back like many Pittsburghers who grew up there 
to be part of this economic revolution that we have happening 
in Pittsburgh. And when I was a kid, if you think of the year 
1979, the Steelers won the Super Bowl. The Pirates won the 
World Series, and our economy collapsed. With the increasing 
globalization of the steel industry, we lost about one-third of 
our workforce, 30 percent unemployment. That is why our 
Steelers travel so well. Perhaps in your districts you have 
Steeler bars because we lost a whole generation of workers.
    But if you think about the legacy of innovation of that 
first Industrial Revolution, the titans of industry, the 
Carnegies and the Mellons left us a great legacy. They seeded 
investments in Carnegie Mellon University. We have a great 
foundation community, and that has been the investments upon 
which we built this new economy.
    That is why we are a leader in autonomous vehicles, where 
that technology that started 20 years ago, the smart folks at 
Carnegie Mellon were doing robotic vehicles back in the late 
1970s and early 1980s, and we are now just at a point where we 
are looking to take advantage of that growth.
    And we consider ourselves to be stewards of that public 
wealth that has been left to us, and we stand on the shoulders 
of those legacies and generations of Pittsburghers who came 
before us.
    So with that, how we approach government in Pittsburgh is 
we think about that very creatively in terms of looking at how 
we provide services and return of the social compact, taxpayers 
paying money for services they receive. One of the first things 
we did in this administration was we commissioned a facilities 
study. Believe it or not, 4 years ago the city of Pittsburgh 
did not even have a comprehensive list of all the facilities 
that we owned. We did not know all of the different buildings. 
They were siloed in different departments.
    So that was the first thing that we did, was take a 
comprehensive inventory about that to understand how we can 
relocate. Now that we are perhaps the first administration that 
is charged with managing growth--prior mayors were charged with 
managing decline--how do we best utilize these public assets to 
build economic development, to improve the quality of life for 
our residents in the city, to invest in affordable housing in 
neighborhoods using this vacant and abandoned property that we 
have, and to create jobs and economic growth?
    And one of the first things that we saw, if you can put up 
the first slide, is we had a number of areas in the city, the 
blue dots, where we are doing things in the city of Pittsburgh 
perhaps, for example, parking garbage trucks every day on very 
lucrative, perhaps developable riverfront property in areas of 
the city.
    [insert slide 1]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    We do not have a comprehensive single place where our 
public safety training facility could be located. We have 
police officers and firemen come to the city, relocating in 
trailers that flood when there is a flood, not the best way to 
invite your public servants to put their lives on the line.
    So the outcome of this study was to identify, as the 
Administrator mentioned, which properties that we own in the 
city that we want to convert to a higher and better use, again, 
to serve the residents of the city in a better manner and to 
build the tax base.
    And that is really what brings us to the opportunity with 
the VA site. Mr. Chairman, thank you for being with us last 
month. I think you saw firsthand the opportunity that we have 
here.
    The site on the map is at the top right-hand corner, the 
green dot. It is a fairly isolated site. The topography of 
Pittsburgh, it is high up. It is disconnected from the 
neighborhoods. It is 184 acres, about 19 buildings, again, 
fairly isolated from other neighborhoods in the city of 
Pittsburgh. It is disconnected from the power grid. There is a 
plant there that any other use would have to reconnect and 
restart that plant.
    It is also depreciating rapidly. We started this 
conversation in late 2014. It was my first visit as a new 
public servant to the site, and you could already see the 
decline that has happened just through Mother Nature.
    So we would love to convert that declining asset to 
productive use. The good news is we have a plan.
    [insert slide 2]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The relocation of those different sites we could unlock for 
economic development. We have commissioned a study to 
understand how we could put on site there our city fleet, heavy 
equipment maintenance, DPW operations. We can build a first-
class public safety training facility, multijurisdictional, 
working with the county, surrounding communities to do the 
right thing, and we are ready to go.
    Again, we also realize that this is sacred ground. This was 
the VA hospital for the city of Pittsburgh, where veterans went 
and served and came back and were mended.
    My own father who served as a Marine during Vietnam 
received treatment there. My aunt served for 20 years after her 
service in the U.S. Air Force and was a police officer on this 
site.
    So we as a member of the city of Pittsburgh will be good 
stewards of this site to convert it to productive use.
    And with that I just want to confirm and appreciate the 
staff at the VA and the GSA. You have great people working 
here. This is not a people problem. You have a process problem. 
The folks that we have worked with have been responsive. They 
are smart. They know their business. They are development 
oriented, but the redtape that it takes to convert this process 
and this property to productive use is standing in the way. It 
is costing Federal taxpayers money. It is costing us an 
opportunity cost to relocate our facilities to better use that 
would benefit the residents of the city of Pittsburgh.
    So with that, again, I appreciate the opportunity. I look 
forward to working with you, and, Mr. Chairman, thank you for 
your support and for your leadership.
    Mr. Barletta. Thank you, Mr. Acklin.
    And I just have to say I could not help but put my mayor's 
hat back on while I was there, and this is a perfect example. 
This is a model project where it is a win-win for the 
taxpayers.
    The taxpayers of Pittsburgh win by selling very valuable 
property that can be turned into an economic development 
project with more income coming into the city.
    The Federal taxpayer benefits by getting rid of 160 acres 
of properties that the meter is running on every day. I am sure 
it is more than $300,000 since the last time I was there, and 
why the FASTA is so important that we dispose of these 
properties in a timely manner so that the taxpayers win, and 
that is what this is all about. It is all about the taxpayer 
dollars.
    So thank you. I will now begin the first round of questions 
limited to 5 minutes for each Member. If there are any 
additional questions following the first round, we will have an 
additional round of questions as needed.
    I will begin with Mr. Horne. Just in a timely manner here, 
yesterday the FBI and GSA officially canceled the FBI 
headquarters exchange procurement. While the news was a shock, 
I am not surprised that you did it.
    In fact, this committee told the previous administration 
that exchanging the Hoover Building for a new headquarters was 
a mistake and would fail. The decision to pursue an exchange 
strategy is what killed this procurement, and the people who 
made that decision are gone now.
    By structuring the procurement as an exchange, the previous 
administration precluded the new headquarters from being built 
in phases like the DHS headquarters. Instead, the developer 
would have to build the entire facility before the FBI could 
move and hand over the Hoover Building as payment to the 
developer, and that can only happen with full funding of the 
project, which GSA does not have.
    But the need for a consolidation of FBI headquarters 
remains, and I strongly encourage this administration to pursue 
a public-private partnership strategy. I believe a P3 is the 
only way to deliver a consolidated headquarters for the FBI.
    I believe the administration will have strong bipartisan 
support for allowing GSA to use a ground lease leaseback or a 
discounted purchase option to acquire a new headquarters. I am 
willing to do whatever I can to help GSA get OMB approval to do 
this, and I hope that you will pursue such a strategy.
    We have the opportunity to fix this project and get it back 
on track.
    My question is: is GSA willing to pursue options such as 
these for acquiring a new consolidated FBI headquarters?
    Mr. Horne. Thank you, Mr. Chairman, and thanks for the 
opportunity to meet in your office yesterday with your staff. I 
enjoyed our conversation about the good work that is happening 
at GSA. I enjoyed meeting your staff and especially enjoyed 
meeting Riley, your--what is he, a Golden Retriever?
    Mr. Barletta. English Golden Retriever.
    Mr. Horne. A Golden Retriever. I kind of wish he was here 
with me today over on the stand here.
    So I also want to take this opportunity for any GSA folks 
that are watching the hearing back in the office to say thank 
you for your great work. July marks the 68th birthday of the 
General Services Administration. So I just wanted to thank the 
GSA employees for their great work and wish GSA a happy 
birthday.
    In terms of the FBI project, you are correct. It really 
came down to the structure of the deal plus the lack of funding 
equals an inability to move forward, and we are absolutely 
committed to working with this committee, the FBI, and with the 
Office of Management and Budget on all options moving forward.
    There is no doubt that the FBI consolidation is a priority 
for this administration and for GSA.
    Mr. Barletta. Thank you.
    Mr. Acklin, thank you, again, for being here.
    The city's approach is a good example of what we want to 
see from FASTA, consolidating agency functions, the freed up 
properties for economic growth.
    What are the next steps on your end as this disposal 
process is underway?
    Mr. Acklin. Well, thank you, Mr. Chairman.
    First of all, we have already budgeted. So the plan that we 
have and presented to you today--and I have and I could share 
with Members--we have a comprehensive plan. Our budget over the 
next 5 years assumes that we will move forward with this site, 
again, not even including the increase to the tax base that 
will come from that development.
    So we are ready to go. I think that there has been 
conversation we had as recently as yesterday about the 
timeline, understanding that the environmental work needs to be 
done, the historical review, the section 106 review, as well as 
the community conversation.
    The good news is that we are willing to partner with the 
Federal Government. There is an opportunity to pilot for this 
project to show other cities and other municipalities that this 
is a good way that we could collaborate as partners to save 
taxpayer dollars both at the Federal and the State and local 
level.
    Again, my chairmanship of the Redevelopment Authority in 
Pittsburgh, this is what we do every day, is converting 
otherwise vacant, abandoned, derelict property to productive 
use to build out to the vision of a more equitable city. So I 
think that in terms of moving forward I do have some steps in 
front of me as I understand the conversation between our staff 
and the folks at the GSA now that it has been declared vacant 
or surplus by the VA.
    We had a great meeting a couple of months ago down here in 
Washington with the VA and the GSA staff. So we are willing to 
partner with them to have an efficient and more expedient 
process because, as you mentioned, this is something that we 
are all paying for right now, and moving forward, we are 
committed to be partners.
    Mr. Barletta. How closely has the city worked with VA and 
GSA?
    Mr. Acklin. Fairly closely. So this probably over the last 
couple of years, again, going through the VA process of 
declaring it surplus, there is a time period. There is a sense 
of duplication, that some of the work that was done by the VA 
has to be done again by the GSA, but again, all I can say is 
that the staff is very professional, very action oriented to 
dispose of this property, if so inclined, if this ends up being 
a good deal for the Federal Government like we think it is.
    And so my understanding is hopefully by early next year 
that review will be completed, and if there is anything that we 
can do on the local level to assume the risk of that 
completion, we are willing and able to do it.
    This is a good deal. If this was a private-sector deal, it 
would be done already. You know, this is a good deal for the 
Federal Government. It is a good deal for the city. Again, I 
was a mergers and acquisitions lawyer before I took this job, 
because of my love for the city of Pittsburgh. That is the type 
of approach that we take.
    We are talking about public money here. Public money is 
just as green as private money, and we are spending public 
money because we have a vacant and abandoned site, and we are 
spending public money in Pittsburgh because we have sites that 
could be put to more productive use.
    In fact, I would say it is greener than private money 
because every dollar we spend to maintain a vacant or abandoned 
property is one fewer dollar that I can put into a police 
officer's pocket who puts his life on the line every day, one 
fewer dollar that I can put into affordable housing when we are 
threatened with maybe the tax cuts to LIHTC [Low-Income Housing 
Tax Credit] that we are facing for affordable housing down here 
in Washington.
    So, again, when you have an opportunity to do the right 
thing, and again, Mr. Chairman, as the former mayor of 
Hazleton, I think you understood it. Mayors are on the front 
line of the issues here in the country, and it is a global 
issue right now. We are closest to the people, and we are 
willing to take on the risk to make this deal happen as soon as 
possible.
    Mr. Barletta. And I also realize when these buildings are 
empty, when they start getting to third and fourth year that 
they are empty is when the real danger comes because then the 
roof starts leaking and water gets in, and then the properties 
are worthless.
    So the focus of this hearing is really to talk about FASTA 
and why it is so important that we have a process to dispose of 
these properties to protect the taxpayers.
    I would now like to recognize Ranking Member Johnson for 5 
minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    I would want to not yield to Mr. DeFazio, but to allow him 
to use his 5 minutes first and then it would come back to me if 
that is fine with the chair.
    Mr. Barletta. You may proceed.
    Mr. DeFazio. Thank you. I thank the ranking member. I thank 
the chairman.
    ``No member or delegate to Congress, or elected official of 
the Government of the United States or the Government of the 
District of Columbia, shall be admitted to any share or part of 
this Lease, or to any benefit that may arise therefrom.''
    Mr. Horne, is the President of the United States an elected 
official of the Government of the United States? Yes or no? It 
is simple.
    Mr. Horne. Yes.
    Mr. DeFazio. Good. Thank you.
    So has there ever been to your knowledge a similar 
situation where a President has been a signatory of a major 
lease with the GSA?
    Mr. Horne. No.
    Mr. DeFazio. OK. So we can say this is an issue of first 
impression then essentially in terms of legal interpretation?
    Mr. Horne. Yes, I suppose.
    Mr. DeFazio. Yes. It is unprecedented.
    OK. So how is it then that this contracting officer, Kevin 
Terry, 3 days after the election can send an email to the Trump 
Organization, name redacted, either the son or the daughter, 
saying, quote, ``that this is a fair amount of nonsense,'' that 
people are questioning whether or not the President is in 
violation of a lease when it says no elected official shall 
benefit?
    How could that be?
    Mr. Horne. So thank you for the question.
    We have had a busy couple of weeks at GSA, and last week I 
was----
    Mr. DeFazio. No, let's do this real simple. I do not want a 
filibuster here.
    Do you think that it was proper for the contracting officer 
in an issue of first impression involving the newly elected 
President of the United States when you have a clear lease 
section that says no elected official of the Government of the 
United States shall benefit, to say this is nonsense?
    And what was the legal basis?
    Is that the way your people work? I mean, do you consider 
him to be not prejudiced? Why should he not be recused or 
removed from that position?
    He says no one has ever had to confront this before. It is 
nonsense. Yet he ultimately becomes the arbiter, and there are 
a few other suspicious things. Mr. Dong is appointed head of 
GSA at 12:15. He is removed at 7:15. You are appointed.
    Then he is the head of Public Buildings Service. Strangely 
enough, he had nothing to do with this, the highest profile 
lease in the history of the agency and a totally unprecedented 
issue of first impression, and yet he had nothing to do with 
it, and then suddenly he is detailed out to a nonprofit.
    This all kind of stinks. So let's go back to Mr. Terry. Why 
was he not removed since he prejudiced himself by saying 
``Constitutional scholars, legal counsel, I do not need any of 
that. This is nonsense. Hey, let's go out and have a cup of 
coffee. I want to tell you about my trip to upstate New York''?
    Do you consider that professional conduct? And do you think 
that that person was capable of dispassionately making such an 
extraordinarily critical decision?
    Mr. Horne. So I have read the Bloomberg article that you 
are referring to. When I read the article, I said, ``Boy, I 
wish he would not have said it that way.''
    And, frankly, my first selfish thought was, ``Boy, I am 
going to have to testify next week and I am going to be asked 
about this.'' But I quickly reminded myself that I am the 
acting head of a 12,000-person agency responsible----
    Mr. DeFazio. But, again, is this professional conduct to 
say this is nonsense? Why at that point would you not say, 
``How could you make a dispassionate ruling?''
    Did you ask him? Why did he say it was nonsense and who did 
he go have coffee with? Did he tell you?
    Mr. Horne. I wish he would not have said it that way. I 
wish he would have been----
    Mr. DeFazio. Did he tell you who he went to have or wanted 
to have coffee with? Was it Ivanka or Donald, Jr.?
    Mr. Horne. I wish he would have been more clear in the 
email. When it came to my attention, I knew that we had to look 
into it more and find out the context of what was meant by that 
email.
    Mr. DeFazio. OK.
    Mr. Horne. I asked our Deputy Commissioner of Public 
Buildings to take a look into the situation, to provide me with 
or to seek out the context from the email.
    Mr. DeFazio. OK. Thank you. That is good.
    If I can reclaim my time, this is nonsense. Yet he is going 
to then ultimately render decisions. His ultimate decision is 
because they created yet another shell and the President will 
not get paid today, he will get a hamburger on Monday, you 
know, that he is not benefitting from this.
    You can pay down the debt. You can enhance the asset, which 
he owns the majority interest. He is not benefitting. He is not 
admitted or sharing in this lease or any benefit that may arise 
therefrom.
    Can you really justify that and say there is no benefit to 
an individual who ultimately is going to benefit? If he just 
does not benefit today, he might benefit tomorrow, next week or 
whenever he is not President again?
    Mr. Horne. So my job as the Administrator is to create an 
environment where contracting officers can make decisions, 
business decisions, free from political or senior leadership 
influence.
    Mr. DeFazio. And legal advice?
    Mr. Horne. Kevin Terry worked closely with our Office of 
General Counsel.
    Mr. DeFazio. Could we have the legal documents that were 
provided to Mr. Terry to justify this ruling, please?
    We have asked for those. They have not been provided.
    Mr. Horne. We will continue to work with the committee.
    Mr. DeFazio. So you will not provide those documents? We 
have not seen the documents. You will not provide them?
    Mr. Horne. We will continue to work with the committee on--
--
    Mr. DeFazio. Mr. Chairman, you are the committee. I am not 
the committee. So, Mr. Chairman, would you like to request 
those documents?
    He said he will work with us.
    Mr. Barletta. We will work with him on this.
    Mr. DeFazio. Well, does ``work'' mean we will request?
    Mr. Barletta. I will consider it.
    Mr. DeFazio. OK. Thank you, Mr. Chairman.
    Mr. Barletta. Thank you, Mr. DeFazio.
    Let's be clear. There is no breach of contract. The 
determination of a breach is made by the contracting officer. 
In this case, he determined there is no breach of contract, and 
this is reasonable.
    I submit for the record an article by Professor Andy Grewal 
published in the Yale Journal on Regulation blog concluding the 
decision by the contracting officer is reasonable.
    The plain language of the contract itself demonstrates his 
decision was reasonable. It says that no elected official shall 
be admitted to any share or benefit. It does not prohibit a 
party from becoming an elected official after he is admitted to 
the contract.
    Now, we can disagree about the interpretation, but the 
fundamental question is whether the decision was a reasonable 
one, and I think the record shows that it was.
    I would like to recognize Representative Denham, who was 
responsible for leading and getting the FASTA across the finish 
line, which will benefit the American people for a long time to 
come.
    So, Mr. Denham, you have 5 minutes.
    Mr. Denham. Thank you, Mr. Chairman, and thank you for 
holding a hearing on this very important issue and this very 
bipartisan bill.
    It was signed into law last December, something that we 
worked on for over 5 years to not only get it signed into law, 
but now making sure its implementation goes through very, very 
quickly.
    The Federal Government manages over 267,000 buildings, 
comprising 2.8 billion square feet of space, and the GAO has 
consistently said that the Federal Government just does not do 
a very good job of managing those properties. In fact, early 
on, we had to embarrass agencies on the Old Post Office, first 
of all, then the Georgetown Heating Plant, Federal courthouses 
across the country, areas that have been sitting vacant for 
years, if not decades, costing us millions of dollars every 
single year in maintenance and upkeep.
    We can do a much better job reducing cost, but also coming 
up with funds that will help us to reduce our debt and move our 
priorities forward.
    But getting FASTA implemented is key. You know, this is a 
new tool that will get rid of burdensome reviews and make sure 
that we are waiving a lot of the disposal process and making 
sure that we streamline the process as well.
    These tools provide a great opportunity for the Federal 
Government and the taxpayer, but first the Public Buildings 
Reform Board must be established. A nonpartisan and 
professional Board is integral to identifying not only the 
waste, but a lot of the unneeded properties and help us to move 
those forward.
    I am glad to see that the administration as well as the 
Appropriations Committee have both recognized from the budget 
perspective that we have got to allocate money to establish the 
Board, but we have got to get this Board up and running very, 
very quickly.
    While the resources will be important next year, there are 
actions that can occur right now that will benefit FASTA. We 
have got to leverage existing authority for public-private 
partnerships and innovative ways like ground lease, leaseback, 
and discount purchase options.
    The potential to save billions of dollars is real, but the 
window to implement FASTA has to be precise. It will take a 
coordinated effort to achieve the goals of housing more Federal 
employees in less space, reducing our reliance on costly lease 
space, and selling high-value assets that are too valuable for 
housing Federal employees.
    So I am proud that we have worked on a bipartisan level. 
Chairman, thank you very much for not only your partnership on 
this, but helping us to get this across the finish line. Now 
the important piece is getting it implemented and disposing, 
liquidating these properties that are costing us millions of 
dollars every single year.
    I have got time for just a couple of quick questions. Mr. 
Horne, in June I wrote a letter to OMB requesting assistance 
with structuring the Board this year and the importance of 
doing so. Appointment of the Board triggers a 180-day deadline 
for board recommendations to OMB and GSA.
    A concern that I raised in the letter is the Board is 
appointed, but commercial real estate consultation is 
unavailable because salaries and expenses have not been 
provided.
    What is GSA doing to make its own resources available to 
the Board so we can move quickly?
    Mr. Horne. Thank you for the question.
    Obviously, we very much appreciate the legislation. We 
think it is a terrific way to help better manage underutilized 
properties.
    While we are waiting for the Board, we have collected all 
of the data. We have a list of 82 projects from 14 agencies, 
many from GSA and from VA. We are working with following up 
with agencies who submitted information to resolve questions 
and concerns and will have the information 100 percent ready 
for the Board when they are established.
    Mr. Denham. Thank you.
    Oftentimes, due to budgetary scoring rules, GSA undergoes 
successive operating leases, also resulting in paying for 
properties multiple times their value over the long run. If the 
Federal Government were to buy the property, the total cost 
would need to be provided upfront.
    Under an operating lease, only the value of 1 year of the 
lease needs to be provided in accordance with the current 
scoring rules. If GSA could utilize public-private partnerships 
like ground lease, leasebacks without needing to provide the 
total project cost upfront, would GSA be interested in pursuing 
such opportunities?
    Mr. Horne. We would. We would very much be interested in 
working with the committee and with OMB to pursue those 
opportunities.
    Mr. Denham. And could that also prevent GSA from paying for 
the properties beyond their total value and yield taxpayer 
savings?
    Mr. Horne. It would.
    Mr. Denham. Thank you.
    Mr. Chairman, I yield back.
    Mr. Barletta. Thank you, Mr. Denham, and thank you for your 
work.
    The Chair now recognizes Ranking Member Johnson for 5 
minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Mr. Horne, are you aware that article 1, section 9, clause 
8 of the Constitution expressly forbids a Federal office holder 
from receiving things of value from foreign governments without 
the consent of Congress?
    Mr. Horne. Yes.
    Mr. Johnson of Georgia. And you are aware that the 
Emoluments Clause, which is that clause, protects against 
foreign governments and other foreign powers being able to 
exert undue influence over federally elected officials, 
including the President of the United States?
    Mr. Horne. I am not an expert on the Emoluments Clause, but 
it sounds like that is what it does.
    Mr. Johnson of Georgia. All right. And section 37.19 of the 
GSA lease with Donald Trump's Old Post Office LLC, is a 
standard and material term included in every GSA lease 
agreement and is included to protect the public interest and to 
protect against and to prohibit Emoluments Clause violations by 
the lessee; is that not correct?
    Mr. Horne. I am not familiar. You read the numbers of the 
clause. What is the clause that you are referring to?
    Mr. Johnson of Georgia. Yes, that is the clause that says 
``no member or delegate to Congress, or elected official of the 
Government of the United States or the Government of the 
District of Columbia . . . '' That is the one that you agreed 
with Mr. DeFazio about, the clause that he read to you.
    That is a standard clause in lease agreements, is it not?
    Mr. Horne. It is my understanding that the clause has been 
used before in outlease contracts.
    Mr. Johnson of Georgia. And it is in there to protect 
against lessees being able to accept foreign gifts without 
approval of Congress, and it requires that the public official 
divest themselves of any interest in the lease if they should 
become a federally elected official or a District of Columbia 
elected official, correct?
    Mr. Horne. It is my understanding that the clause is used 
in some outlease contracts, which is the case like the Old Post 
Office.
    Mr. Johnson of Georgia. OK.
    Mr. Horne. Not our standard leases where we lease property.
    Mr. Johnson of Georgia. So OK. Are you aware of a meeting 
on December 8th, 2016, between then-Deputy Public Buildings 
Service Commissioner and now Acting Public Buildings Service 
Commissioner Michael Gelber and the Democratic staff of this 
committee wherein the Deputy Commissioner gave an initial 
assessment that President Trump would be in breach of the lease 
agreement when he became President unless he fully divested 
himself of all financial interest in the Trump Old Post Office 
lease?
    Are you familiar with that meeting?
    Mr. Horne. That was before I was Acting Administrator and 
have not talked to Mr. Gelber about that.
    Mr. Johnson of Georgia. Are you familiar with the GSA 
Public Buildings Service Leasing Desk Guide?
    Mr. Horne. I could not quote chapter and verse, but I know 
that it exists.
    Mr. Johnson of Georgia. But that guide provides some best 
practices for the management of GSA leases, correct?
    Mr. Horne. Again, I need to distinguish between an 
outlease----
    Mr. Johnson of Georgia. Well, no. I am asking. It gives 
best practices.
    Mr. Horne. OK.
    Mr. Johnson of Georgia. And one of the best practices is 
that if a potential breach of the lease occurs, then you would 
send the tenant a notice to cure letter; is that correct?
    Mr. Horne. Sure.
    Mr. Johnson of Georgia. And no notice to cure letter ever 
went out to President Trump or any of his children, correct?
    Mr. Horne. In the----
    Mr. Johnson of Georgia. There was no notice to cure letter 
that was ever sent out; yes or no?
    Mr. Horne. The contracting officer made the determination 
that the tenant was in compliance with the lease.
    Mr. Johnson of Georgia. But there was no notice to cure 
letter that went out.
    Mr. Horne. There was no reason for a cure letter.
    Mr. Johnson of Georgia. OK. That was because President 
Trump anticipated that he might have a problem with the 
Emoluments Clause under the lease. So he took it upon himself 
to set up what has been described as a shell operation, to 
remove his interest to another corporation and on down the 
line, correct?
    Mr. Horne. I am not going to speculate on the structure of 
the limited liability company.
    Mr. Johnson of Georgia. His interest was restructured, and 
based on the restructure, that is what led Mr. Kevin Terry to 
opine that under the new setup Trump was not in violation of 
the lease and did not have to divest himself; is that correct?
    Mr. Horne. The contracting officer made the determination 
that the tenant remains in full compliance with the terms of 
the agreement.
    Mr. Johnson of Georgia. That contracting officer is not a 
lawyer, correct?
    Mr. Horne. I do not know if he is a lawyer or not.
    Mr. Johnson of Georgia. Well, let me ask you this question. 
Are you familiar with the fact that this lease has never been 
submitted to GSA's Office of General Counsel or to the 
Department of Justice or the Office of Government Ethics or to 
any other legal office for an official legal opinion?
    Mr. Horne. I can tell you that the lawyers at GSA have 
spent a tremendous amount of time----
    Mr. Johnson of Georgia. There has been no legal opinion 
rendered by the Office of GSA Counsel, correct?
    Mr. Horne. I do not know if they have issued a legal 
opinion.
    Mr. Johnson of Georgia. You are the Acting Director, and 
you are not familiar with whether or not there has been a legal 
opinion?
    Mr. Horne. I am familiar with the fact that the contracting 
officer, along with the guidance of the Office of General 
Counsel, has determined that the tenant----
    Mr. Johnson of Georgia. OK. Well, you have answered that 
question, and we know that. You have answered that question.
    Now, Kevin Terry's decision that there was no Emoluments 
Clause violation provides no rationale or legal justification 
in support of the decision, other than the exhibits and legal 
arguments provided to him by President Trump's personal 
lawyers; is that not correct?
    Mr. Horne. GSA's role is to determine compliance with the 
terms and conditions of----
    Mr. Johnson of Georgia. Sir, if you will, answer my 
question.
    Mr. Horne [continuing]. The lease. GSA's role is not to 
determine compliance with the Emoluments Clause in the 
Constitution.
    Mr. Johnson of Georgia. OK.
    Mr. Horne. Its role is to determine compliance with the 
terms and conditions of the lease.
    Mr. Johnson of Georgia. Well, who is in the best position 
to make that determination? Would it be a contracting officer 
who is a non-lawyer or would it be the Office of General 
Counsel of GSA?
    Mr. Horne. The Office of General Counsel at GSA does not 
make decisions. Contracting officers make decisions.
    Mr. Johnson of Georgia. It gives opinions though, legal 
opinions, correct?
    Mr. Horne. Makes decisions based on legal advice from the 
Office of General Counsel.
    Mr. Johnson of Georgia. And no decision by the Office of 
General Counsel underlaid Kevin Terry's opinion letter.
    Mr. Horne. I respectfully disagree.
    Mr. Johnson of Georgia. Do you have a copy of the opinion 
letter from the GSA Office of General Counsel?
    Mr. Barletta. The gentleman's time is up. We will entertain 
a second round of questions.
    Mr. Johnson of Georgia. I will yield back then.
    Mr. Barletta. Thank you, Mr. Johnson.
    The President is not the first businessman who has become 
President. In fact, a number of our Founding Fathers, including 
George Washington, Thomas Jefferson, and James Madison, not 
only held businesses, but ran them as President.
    Were all of these Presidents in violation of the very 
Constitution that they helped to draft?
    I want to submit for the record two articles of legal 
studies, a paper written by Andy S. Grewal, professor at the 
University of Iowa, College of Law, and a Harvard Journal of 
Law and Public Policy article by Seth Tillman.
    Thank you.
    The Chair now recognizes Mr. Ferguson for 5 minutes.
    Mr. Denham. Mr. Chairman, can I ask for a point of inquiry?
    Mr. Barletta. Yes.
    Mr. Denham. Being familiar with this lease, when President 
Obama agreed to this lease and Dan Tangherlini announced to 
this committee that it was going to be done, did they not do an 
inquiry?
    Can we request what inquiries were done out of the previous 
administration when they signed this lease?
    Mr. Nadler. Would the gentleman yield? Would the gentleman 
yield for a question?
    Mr. Denham. I don't think I control time right now.
    Mr. Barletta. No. I recognize Mr. Ferguson for 5 minutes.
    Mr. Ferguson. Thank you, Mr. Chairman.
    And, gentlemen, thank you for taking time to be here today.
    Mr. Acklin, thank you for your work in Pittsburgh with the 
redevelopment. I was a mayor before wading up into all of this, 
and I will tell you that some of the most rewarding work that 
you can ever do in a community is to redevelop areas that have 
fallen on hard times or that have historically lacked strategic 
investments either from the private sector or the public 
sector.
    I do think that it is vitally important where we have 
underutilized or unused public assets to be able to find ways 
to put those into productive use for communities, whether it is 
for the sale of those properties. In a lot of cases what we 
were able to do is to do long-term leases that not only 
satisfied the question about who maintains ownership of the 
property and will it continue to be used for its ultimate 
purpose, but also it created long-term revenue streams back 
into our community to further the redevelopment plan.
    Do you have any experience in that type of model?
    Mr. Acklin. Yes, sir. Thank you, Mr. Ferguson.
    In fact, the work that resulted in the presentation that I 
showed today about the vacant and abandoned properties in the 
city, we have taken a comprehensive view. When you have a city 
like Pittsburgh that in 1960 housed over 600,000 people and 
today is just over half of that, it has been overbuilt. We have 
a lot of aging infrastructure. We have a combined sewer 
overflow problem. Every time it rains in the city, raw sewage 
pours into our rivers.
    We are actually in negotiations right now with friends down 
the hall in the DEP and the DOJ to try to get a consent decree 
done.
    So when we think about property in the city, public 
property, there are sort of three lanes that we talk about. We 
talk about economic development, properties that are ripe for 
development based on a market analysis. For example, some of 
those blue dots along the Allegheny River to the north, that is 
called the Strip District. So 30 years ago, that is where 
produce came to the city on rails, and it is a very organic, 
vibrant place that we are trying to recreate.
    You have got a lot of housing happening there. So you have 
this organic conversion from industrial to housing. So it made 
sense 30 years ago to park garbage trucks there. It no longer 
does.
    That lane of for-profit redevelopment to rebuild the tax 
base is a lane. Dealing with green infrastructure to deal with 
the water issue is another lane, and then sort of land bank, 
stockpiling property to hold for the future for community 
development for affordable housing and rebuilding neighborhoods 
to guard against gentrification and provide for affordability.
    So this is a comprehensive plan. This is but one piece of 
what we have been doing for the last 4 years.
    Mr. Ferguson. Along those same lines, one of the things 
that we found, and you may be able to speak to this as well at 
the local level, you know, sometimes up here, and I have seen 
this in the short period that I have been up here, we tend to 
think that we can solve all of the problems from Washington. 
Really what we are able to do at the local level and what 
communities can do is they can create a tremendous amount of 
economic activity by using these resources that then also 
provide a tremendous amount of revenue that flows back into the 
school systems and various infrastructure projects. So I think 
it is important.
    So the other piece is a lot of this stuff focuses on urban 
areas, but there is also a lot of land outside of our 
communities, whether it is property that is around Corps of 
Engineer owned lakes that could be developed.
    Can you see a scenario where, and maybe, Mr. Horne, you 
could address this one; can you see a scenario where GSA can 
enter into long-term leases with local development authorities 
or enter into it with the State and then local development 
authority where some of these Federal properties could be 
leased long term to create those long-term revenue streams back 
to the Federal Government?
    Mr. Horne. That is an interesting question, one that I had 
not considered, and we would be happy to go back and follow up.
    I do know that it is a priority for us to move vacant 
properties off the inventory and transfer them in opportunities 
like this via a public benefit conveyance to local 
municipalities, and so far that is the best tool in our 
toolbox, to make that progress.
    Mr. Ferguson. Mr. Chairman, I yield back. Thank you.
    Mr. Barletta. Thank you.
    The Chair now recognizes Ms. Norton for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I appreciate this hearing for several reasons, in part 
because I believe this is the first opportunity that the 
committee has had to do any oversight of the GSA, particularly 
given the controversies that are surrounding the agency at this 
time.
    Mr. Horne, I recognize you are a civil servant, but you are 
who the administration has given us for this hearing. Thus, I 
believe that the questions of my colleagues are entirely 
appropriate.
    These are public interest questions, but they are 
particularly important for oversight of a GSA property, a 
property still owned by the United States of America.
    Now, recognizing that you are not the appointed head of 
GSA, I am going to try to ask questions that I think anyone in 
the agency today should be able to answer.
    I am interested in protecting the interests of the United 
States in what appears to be the profitability of the Trump 
Hotel. It was my bill that resulted in the renovation of the 
Old Post Office for the Trump Hotel in the first place.
    It was during the Obama administration that that contract 
was competitively let. I have no reason to believe that Mr. 
Trump did not win it fair and square. He had to put up millions 
of dollars to renovate that hotel. The importance of it for 
this committee is that the profits must be shared with the 
United States itself.
    Unlike other properties that we typically authorize, 3 
percent of the profits for the first 10 years must go to the 
people of the United States, and it does appear that the 
Government was correct in leasing this property. We were 
spending $12 million just to keep it up. It is a priceless 
property.
    And it does appear to be profitable. We know from the 
financial disclosure statements of the President, that he 
received $20 million in income from the Trump Hotel. We know 
that Ivanka Trump, who is a White House aide, received $1.5 
million.
    What I want to know is what the United States received. Has 
the GSA received its share of profits from the hotel thus far?
    Mr. Horne. Thank you for the question.
    And I just want to affirm that we are, in fact, committed 
to transparency.
    Ms. Norton. Look. Everybody's time is limited here. Has the 
GSA received its 3 percent?
    Mr. Horne. It is my understanding that the terms and 
conditions of the lease require a report at the conclusion of 
the first year of the operation of the hotel, and that is what 
would trigger the profit sharing, if you will, for lack of a 
better term.
    Ms. Norton. All right. We are past the first year.
    Mr. Horne. The hotel opened in October.
    Ms. Norton. So you are saying that you are waiting to see 
whether or not you received. We already know that, of course, 
the family has received profits.
    Your report has not been issued because it is not a full 
year.
    Mr. Horne. Right.
    Ms. Norton. Do you know whether or not the GSA has received 
profits at all from the Trump Hotel?
    Mr. Horne. We received $250,000 a month payment, and then 
the lease requires----
    Ms. Norton. So it has received $250,000 each month?
    Mr. Horne. Yes.
    Ms. Norton. Why has GSA not shared the monthly financial 
reports? You are required to have monthly financial reports. 
The deal was structured for transparency so that the people of 
the United States would know that they were getting their money 
out of it.
    So if there are monthly financial reports, why can we not 
receive the financial reports for each month?
    Mr. Horne. It is my understanding that the reporting 
requirement is after a year, not on a monthly basis.
    Ms. Norton. Have you been receiving them on a monthly 
basis?
    Mr. Horne. I am not aware of monthly reports that----
    Ms. Norton. Well, let me just say this for the record. You 
do not have a deal that says you must receive monthly reports 
and not make those reports available to the public and to the 
Congress of the United States. So if they have been received, 
you can at least tell us that you are receiving these monthly 
reports.
    Mr. Horne. If we have, I will be happy to follow up and 
answer that question.
    Ms. Norton. You know that those are required by the lease, 
and I wish you would, indeed, follow up and submit that 
information to the chairman.
    Mr. Horne. Sure.
    Ms. Norton. I also know that you have been put in a 
position where the Department of Justice has issued a legal 
opinion stating that the ranking minority member--this is the 
first time, I think, in the history of the Congress--does not 
have the authority to conduct oversight and, therefore, unlike 
my experience with this committee where the ranking member 
could always get documents, that has not been the case here.
    Have you been directed not to provide documents to minority 
members, including the minority member of this committee?
    Mr. Horne. I have not been directed to not provide any 
specific documents; I have been given an overall general policy 
of the administration that for matters of oversight, that those 
requests need to come from the chair.
    I will add that our staff meets frequently with the staff 
from this committee. We are in constant communication. Not 
every inquiry requires a formal letter. Sometimes it is a phone 
call; sometimes it is an email.
    You know, I sit down the hall from those guys and see them 
getting in an Uber all the time to come up here and talk. So I 
know that there is communication back and forth between our 
Office of Congressional Affairs and this committee.
    Mr. Barletta. The gentlewoman's time has expired.
    We will move on to our next Representative. Mr. Mast, you 
have 5 minutes.
    Mr. Mast. Thank you, Chairman.
    And thank you all for your testimony here this morning. It 
has been great to hear it.
    Mr. Horne, specifically in your testimony you have 
highlighted a lot of the importance of going out there working 
with local communities. You spoke about it in terms of the 
local community of Cambridge, the work that the DOT has done 
there, and I wanted to touch a little bit on that.
    You know, I think this has helped to really significantly 
lower risk and increase value. This has been something that has 
been spoken about. So could you speak a little bit about the 
importance for GSA to work with those kinds of local officials 
to maximize the value of property that it plans to sell?
    And then also if you can find space in there, I would love 
to hear a little bit of speculation from you on if there has 
been work specifically done to go out there and lend a hand to 
our federally qualified community health centers that are out 
there doing work who are constantly looking for space to go out 
there and meet some of those healthcare challenges and if you 
see a road to work with them.
    Mr. Horne. OK. Thank you. Thank you for the question.
    You know, one of the great parts of the mission of GSA is 
the opportunity to have impact on local communities. We are 
here today to talk about a real chance to make an impact on the 
city of Pittsburgh through a property disposal, but also the 
Federal presence is the anchor of just about every downtown 
major city in the country.
    So we take that responsibility very seriously. We have a 
local presence in every major market and most submarkets where 
we have GSA representatives on the ground in that city. Part of 
their basic job description is to be a good neighbor and 
understand the impact that the Federal presence has there.
    In terms of the disposal process and how that can 
positively impact the local communities, one of the authorities 
under the Property Act is the idea of a public benefit 
conveyance. So it is really a local entity like the city of 
Pittsburgh and perhaps community health organizations. I do not 
know enough about the rules of what would qualify an 
organization for a public benefit conveyance, but it is really 
the mechanism where a community for public good, whether it be 
like what is happening in the city of Pittsburgh, whether it is 
for a fire station, sometimes for redevelopment, where they get 
priority before it goes to public sale, and the process allows 
for us to do that.
    We have done several public benefit conveyances all across 
the country.
    Mr. Mast. Thank you for that.
    And, Chairman, I yield back.
    Mr. Barletta. Thank you.
    The Chair recognizes Mr. Nadler for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    I just want to before I start my questioning ask if I 
understood Mr. Horne to reply to Ms. Norton that you would 
respond only to requests from the chairman and, therefore, not 
to requests from any other member of the committee?
    Mr. Horne. The administration's policy is to respond on 
matters of oversight, to respond to requests from the----
    Mr. Nadler. Only from the chairman. I do not have time. So 
your answer is yes, only to the chairman, nobody else.
    Mr. Horne. Only to the committee, yes.
    Mr. Nadler. To ignore everybody else on the committee. Not 
the committee; to the chairman. Only if a request comes from 
the chairman, correct?
    Mr. Horne. Yes.
    Mr. Nadler. Thank you.
    Let me just say that that is obnoxious and unprecedented. I 
understand you did not set it. It is an obnoxious and 
unprecedented contempt for Congress which is intolerable.
    Mr. Horne, at a January press conference the President 
promised to track profits received by his hotels from foreign 
governments and to donate those profits to charity or to the 
U.S. Treasury.
    In May in response to a bipartisan request from the 
Oversight Committee, the Trump Organization stated it was, 
quote, ``impractical,'' unquote, to, quote, ``fully and 
completely identify all patronage,'' unquote, at its hotels.
    Now, Mr. Horne, do you have any reason to believe that the 
President and his company, that is, his private company, are 
following through on his January promise to track and donate 
all foreign monies received by his hotels?
    Mr. Horne. My role is to make sure that the agency is 
administering the lease, and as far as I know that clause is 
not in the lease.
    Mr. Nadler. So your answer is you do not know.
    Mr. Horne. I don't know.
    Mr. Nadler. OK. Thank you.
    Has GSA sought to amend the lease or otherwise enter into 
an agreement to require the Trump Organization to track 
payments by foreign governments?
    Mr. Horne. No.
    Mr. Nadler. It has not.
    Mr. Horne. Not to my knowledge.
    Mr. Nadler. OK. Have you contacted the Department of 
Justice or the Office of Government Ethics and asked for 
assistance or direction on evaluating whether the Trump 
Organization is violating the Foreign Emoluments Clause of the 
U.S. Constitution by not tracking these payments by foreign 
governments?
    Mr. Horne. Again, our role is to administer the lease. We 
will leave judgment about emoluments to----
    Mr. Nadler. But in administering the lease, you have to 
determine presumably whether you are administering something 
legally. You cannot simply ignore it.
    Mr. Horne. As I have stated, the contracting officer has 
made the determination that the tenant is in full compliance 
with the lease.
    Mr. Nadler. OK. Now, the Foreign Emoluments Clause that has 
been mentioned before applies not just to the present Members 
of Congress, but to anyone holding an office of profit or trust 
under the United States.
    Are any other GSA properties leased by an elected official, 
officer or employee of the Federal Government?
    Mr. Horne. I do not know the answer.
    Mr. Nadler. Do you make any attempt to find out?
    Mr. Horne. I would be happy to look into it and follow up.
    Mr. Nadler. No, no. But do you make any attempt?
    Is it a normal practice to try to find out when someone 
signs a lease or are you ignoring that provision of the 
Constitution? Which is it?
    Mr. Horne. It would be a normal practice for the 
contracting officer who makes the decision about lease award to 
make sure that the awardee was in compliance with the lease.
    Mr. Nadler. But you do not know if that includes looking 
into whether the lessee is an employee of the U.S. Government?
    Mr. Horne. To the degree that that is a term and condition 
of the lease, then----
    Mr. Nadler. No, it is not a term and condition of the 
lease. It is a term and condition of the Constitution.
    Mr. Horne. Again, GSA's role is to determine compliance 
with the lease and applicable laws.
    Mr. Nadler. And the Constitution is not applicable?
    Mr. Horne. Of course it is.
    Mr. Nadler. OK. So it would seem that it would be incumbent 
on you to look into that in every case, or at least to ask 
about it.
    Mr. Horne. Well, again, you know, we have 12,000 employees 
that make these decisions all across the country. It is their 
role to look into it.
    Mr. Nadler. OK. And you have no policy.
    Mr. Horne. It is my job to oversee----
    Mr. Nadler. And you have no policy to obey the law.
    Do any other GSA properties help to facilitate payments 
from foreign governments to federally elected office holders?
    Mr. Horne. Please repeat the question.
    Mr. Nadler. Do any other GSA properties help to facilitate 
payments from foreign governments to federally elected office 
holders?
    Mr. Horne. I am not aware of any.
    Mr. Nadler. OK. Between October 1st and March 31st, 
lobbyists working on behalf of the Kingdom of Saudi Arabia 
spent $270,000 on rooms, catering, and parking at the Trump 
Hotel.
    In December of last year, Bahraini diplomats moved the 
country's National Day festivities to the hotel's ballroom.
    In February, Kuwait moved its annual gala from the Four 
Seasons to Trump International.
    Is it appropriate for the GSA to maintain a lease that 
allows foreign governments to make payments as I have just 
mentioned in each case that directly benefit a Government 
official, in this case the President of the United States?
    Mr. Horne. Sir, we manage the terms and conditions of the 
lease. The contracting officer has determined that the tenant 
is in compliance with the lease. We do not manage day-to-day 
operations. Our job is to administer the lease. We do not get 
involved in day-to-day operations of the hotel.
    Mr. Nadler. But your Legal Department has made no 
determination one way or the other whether payments from 
foreign governments to an entity leased from the GSA by a 
Government official, in this case the President of the United 
States, constitutes a violation of the Emoluments Clause or 
not. You are simply agnostic on that point.
    Mr. Horne. Our Legal Department supported the contracting 
officer while he made his decision----
    Mr. Nadler. Has it made an opinion on that?
    Mr. Horne [continuing]. That the tenant is in full 
compliance with the terms and conditions----
    Mr. Nadler. Has it made an opinion on it that we can have?
    Mr. Horne [continuing]. Of the lease.
    Mr. Nadler. Has it made an opinion on that? That is my 
question.
    Mr. Horne. Our Office of Legal Counsel supports the 
contracting officer.
    Mr. Nadler. Has it made an opinion?
    Mr. Barletta. The gentleman's time has----
    Mr. Nadler. No, no. But he has got to answer the question.
    Mr. Barletta. The gentleman's time has expired.
    Mr. Nadler. You have got to answer the question.
    Mr. Barletta. The gentleman's time has expired.
    Mr. Nadler. But he should be----
    Mr. Barletta. The gentleman's time has expired.
    Mr. Nadler. But he should answer the question.
    Mr. Barletta. Your question was asked after the time has 
expired.
    Mr. Nadler. No, it was not.
    Mr. Barletta. We will have a second round.
    There are three basic issues: one, the contract only 
restricts an elected official from entering the contract. There 
is no breach.
    Two, there are no conflicts. The President is exempted by 
law.
    And, three, there are respected legal experts who say there 
is no constitutional problem.
    The Chair now recognizes Mrs. Comstock for 5 minutes.
    Mrs. Comstock. Thank you, Mr. Chairman.
    And as I am actually chairing another hearing right now 
that I am going to have to get back to, my apologies for not 
being here and maybe not being all up to date on what everyone 
is talking about here in the hearing.
    But I am from Virginia--obviously--my district is adjacent 
to the Springfield area that was in contention for this, and it 
is my understanding that legislation enacted before I came to 
Congress in 2015 had directed GSA to go about this in a way in 
which they were never supposed to be really having to request 
direct appropriations for this project or at least as much as 
they needed.
    So I am wondering. Didn't the FBI propose a public-private 
partnership so that they could take the valuable asset that 
they have in DC and be able to use that?
    I mean, obviously, when you buy a new house you use your 
old house as collateral to be able to buy the new one, and so 
why wasn't that normal process followed?
    Mr. Horne. It is my understanding in looking into this 
process that at the beginning of the FBI project, multiple 
options for the way to structure a way forward were considered. 
I believe that things like seeking full funding, public-private 
partnerships, doing the exchange authority were all considered, 
and the decision was made at the time to move forward with the 
deal as previously structured where the Hoover Building would 
be part of an exchange that would bridge the funding gap.
    I do not know exactly why it was structured the way that it 
was, but I do know that everyone felt that it was unlikely that 
we would receive the full appropriation and needed to seek ways 
to bridge that funding gap.
    Mrs. Comstock. And I believe the chairman may have been 
addressing this before, and I hope going forward because I 
think what we need for the FBI is to have a fully functioning 
operation. It is certainly my view that it should be in 
Virginia, but I know others prefer Maryland, but we need to 
have something that is sufficient and upgraded and going to 
serve the FBI and its important mission.
    I know we have a lot of blame game here, but can we now go 
back to what the original legislation was intended to do and 
look at these public-private partnerships so that we can 
salvage this and get back on track with this and hopefully not 
have too much of a delay in finding that?
    Is that something that you would participate in?
    Mr. Horne. Absolutely, the FBI is a critical project on a 
variety of fronts. Aside from the money that it will save from 
consolidating FBI functions, from expensive leases, the most 
important part is supporting the mission of the FBI.
    It is absolutely critical that we move forward. It is the 
right thing to do, and it is a priority for GSA. It is 
obviously still a priority for FBI.
    We are committed to working with the committee and the 
Office of Management and Budget on the best way forward.
    Mrs. Comstock. OK. So it is not the situation now that this 
is going to be a left where it is. There is still an 
understanding that we need to consolidate, that we need to 
update, and that we need to have a different facility.
    Mr. Horne. That is absolutely the position of GSA.
    Mrs. Comstock. Now, how can we make sure that the timeline 
is expedited on this so that there is not a lag on getting this 
consolidated facility?
    It is unfortunate that it took so long as it is.
    Mr. Horne. I am committed to making sure that the agency 
makes this a priority and works with this committee in whatever 
way we can to speed up the process.
    Mrs. Comstock. OK. And the other witnesses, can you weigh 
in on that?
    Mr. Simms. So speaking specifically about public-private 
partnerships, VA has an enhanced-use lease authority that 
allows us to outlease and then have third-party developers, 
private sector, cities, localities, municipalities redevelop 
that property for use.
    A previous authority prior to 2011 actually allowed us to 
lease back that space, which would be a prime example of this, 
where you could have a third party develop it and then lease it 
back under that.
    We are pursuing legislation to reenable that so that we 
could do third-party development and then lease back the 
facilities on that. Any kind of alternative financing structure 
like a P3 scenario, like the EUL would be helpful to meet a lot 
of the capital needs from VA's standpoint.
    Mrs. Comstock. OK. Thank you.
    And thank you, Mr. Chairman. I appreciate your time.
    Mr. Barletta. Thank you.
    We will now begin our second round of questions. I am going 
to ask Members to restrict their questions to 5 minutes since 
we have a second panel that we want to get to.
    I will begin. Mr. Horne and Mr. Simms, the traditional 
disposal process can be slow and cumbersome. However, there are 
ways the process can go faster, such as doing certain reviews 
at the same time.
    What are the VA and GSA doing to look for these 
efficiencies?
    Mr. Simms. Chair, we agree with that. We actually engaged 
GSA early in the process to do what we call a targeted asset 
review of the facility that helped us line up what due 
diligence was completed and what due diligence still needed to 
be done before any kind of transaction could occur.
    So we got that on the radar, and we were able to complete 
some of that due diligence before we excessed to GSA. Now that 
it has been excessed to GSA, we are working with them on dual 
tracking both the remaining due diligence for environmental, 
historic, and things like that, as well as the Federal 
screening process and some of the other GSA steps.
    Mr. Horne. When we look at our traditional disposal process 
and plot it out on a line and you have areas where you diverge, 
if there is Federal or homeless interest, we are doing as much 
of that screening concurrently while we are doing the phase 1. 
Specifically about Pittsburgh, it is while we are doing the 
phase 1 environmental assessment. This allows us to compress 
the timeframe a little bit.
    The other thing that we have been able to do is to give the 
city access. Mr. Acklin mentioned the central utility plant. We 
have given the city access to the facility so that they can 
review what their investment might need to be, what work might 
need to be done prior to taking title so that they are able to 
do some of that due diligence upfront.
    Mr. Barletta. Mr. Horne, are there ways that the city can 
help speed up this process? I understand there are certain 
studies and reviews that need to be done. Is there a mechanism 
for the city to help complete any of those?
    Mr. Horne. I think some of that will depend on what we find 
in the phase 1 environmental assessment. I think the one thing 
that I do know is that we are committed to a partnership with 
the city, and we will continue to work together on what we find 
going forward.
    Mr. Barletta. And this question is to Mr. Horne and Mr. 
Simms.
    Obviously, I am very concerned and interested that this 
process moves quickly because, as I said, the meter is running 
and the taxpayers are paying as we speak.
    So do both of you commit to providing this committee with 
regular updates on the Pittsburgh disposal and alerting us to 
any potential delays or problems?
    Mr. Horne. Absolutely.
    Mr. Simms. Yes, sir.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. DeFazio for 5 minutes.
    Mr. DeFazio. Thanks, Mr. Chairman.
    Mr. Horne, does GSA have a formal process by which 
individuals may recuse themselves or be recused from working on 
certain matters? Yes or no.
    Mr. Horne. Yes.
    Mr. DeFazio. OK. Good. Thank you.
    Have either of the following Government employees been 
recused from participating in decisions regarding the Old Post 
Office: Ivanka Trump, assistant to the President? Yes or no?
    Mr. Horne. I do not know.
    Mr. DeFazio. Jared Kushner, senior advisor to the 
President?
    Mr. Horne. I do not know.
    Mr. DeFazio. Well, that is interesting because that seems 
to be in contracting officer Kevin Terry's letter that it is a 
critical component. It is actually included. It says, in fact, 
in that letter that ``it is our further understanding that Mr. 
Kushner has,''--this is before Ivanka had a formal position--
``or will, file necessary confidential financial disclosure 
forms which, among other things, will include among his listed 
assets Ivanka Trump's interests in and flowing from Tenant. It 
is our further understanding that Mr. Kushner has, or will, 
recuse himself from participating in, among other things, any 
matters related to the Lease.''
    But you do not know whether, since that is in a critical 
letter from your contracting officer and he based his decision 
on that recusal, in part, has he received information regarding 
the recusal of either Mr. Trump or Ms. Trump?
    Mr. Horne. I am not sure what information he has received. 
It is his job to administer the contract, and I do know that he 
has determined that the tenant is in full compliance with the 
terms and conditions of----
    Mr. DeFazio. I know, but, sir, sir, but in his letter, he 
says this will be done. But you are saying we do not know if it 
was done. That is correct?
    Mr. Horne. I am saying it is Mr. Terry's job to make that 
determination.
    Mr. DeFazio. Well, but if Mr. Terry made that a condition 
and he does not know, then should he not inquire as to whether 
or not they met the conditions that he stated in his letter?
    Mr. Horne. I did not say that Mr. Terry did not know. I 
said that I did not know.
    Mr. DeFazio. OK. Is this something that only the chairman 
can ask for? Because it seems that Mr. Terry, based on no legal 
opinion that we are allowed to see, and apparently there was 
legal advice but not an opinion; that is my understanding. We 
cannot see it. He did say that the Trumps were going to recuse 
themselves. We do not know if they did that or not, but this is 
all in Mr. Terry's head, and it is all OK, and the people of 
the United States of America in a profit-sharing agreement with 
this family have no right to know whether or not they recused 
themselves from any decisionmaking, including appointing, of 
course, the next GSA Administrator.
    Mr. Horne. We are committed to working with the committee 
to provide information on this project.
    Mr. DeFazio. OK. Well, just referring back to the legal 
opinion by the chairman, I might agree--I am not a lawyer--with 
his reading of the first part of the lease agreement about 
``shall be admitted,'' but there is a second clause which 
stands on its own fully: ``or to any benefit that may arise 
therefrom.''
    It does not matter when the President was or wasn't 
admitted into the lease. This is a separate clause. It says, 
basically, ``or to any benefit that may arise therefrom.''
    Now, Mr. Terry has determined apparently that there is no 
benefit to the President even though the profits have been 
reported by the family, including the President, even though 
the money now under a new agreement will be applied by his son, 
Donald, Jr., potentially to paying off Mr. Trump's personal 
obligations to Deutsche Bank or it will accrue to the benefit 
of the property and enhance it, which Mr. Trump is the most 
substantial owner, and there is no benefit.
    So you are saying that ``or to any benefit that may arise 
therefrom.'' Did the legal counsel who provided the non-opinion 
rule on the ``shall be admitted'' or the benefit part?
    Mr. Horne. I am saying that the contracting officer, with 
the support of our Office of General Counsel, has made the 
determination----
    Mr. DeFazio. In conjunction with.
    Mr. Horne [continuing]. Has made the determination that the 
tenant is in full compliance----
    Mr. DeFazio. Did they give a formal legal opinion? Did they 
give a formal legal opinion?
    Mr. Horne. I do not know.
    Mr. DeFazio. You do not know. OK. Thank you very much for 
your non-answers.
    Mr. Barletta. This is not my opinion. I entered into the 
record opinions of legal experts that the decision is 
reasonable.
    The Chair now recognizes Mr. Mast for 5 minutes.
    Mr. Mast. Mr. Simms, I do not want you to feel left out. So 
I am going to speak to you for a few minutes here. It is 
certainly of importance to me, issues pertaining to the 
Department of Veterans Affairs, our homeless veterans.
    So I want to talk a little bit about the VA has 180 million 
square feet of space, and it was noted in the testimony 430 
individual vacant buildings, about 5.9 million square feet of 
unused space there, and I want you to discuss a little bit if 
you can the reuse actions that are going on there, how many 
beds have been able to be created perhaps for homeless 
veterans.
    What have been the challenges to work with local county 
commissions that may not want shelter type facilities within 
their counties? Can you address some of that and how that is 
going on?
    Mr. Simms. Certainly, and thank you for including me in the 
question there.
    VA's enhanced-use lease authority is specifically geared 
towards supportive housing for homeless veterans. VA by 
definition does not have the authority to provide that housing. 
So we look at our enhanced-use lease authority to provide that.
    We can leverage up to 75-year long-term outleases of both 
property and buildings for conversion into supportive housing. 
We do partner with a wide variety, some nonprofit 
organizations, some local municipalities, housing authorities. 
Those are all partners that we have.
    We have almost, I think, 98 signed enhanced-use leases that 
have resulted in about 2,700 operational beds for housing 
homeless veterans across the country. We have enhanced-use 
leases at many of our VA sites. Some of them have been so 
successful we are looking at phase 2 and phase 3 to continue 
expanding that.
    It is important to note that the supportive housing 
component of it is all private. So VA is not part of the 
operation of the facility, the design, the construction. They 
bring the financing to the table. They do the renovation, the 
construction of the buildings, and they fully operate it. So 
not only does it save taxpayer dollars by us not having to 
support a vacant or unneeded building, but it provides a lot of 
benefits on the veterans' side by allowing them to be housed.
    Veterans would receive priority, but they certainly do 
house non-veterans in some cases if there are not veteran 
demographics to support that.
    Mr. Mast. Beyond that, have you seen some of the veterans 
service organizations attempt to reuse some of these facilities 
that have been out there?
    Mr. Simms. So VSOs, not directly. Certainly, we work with 
the VSOs as a voice of the veteran in different areas. We would 
look to them to help define the types of supportive housing 
that might be necessary, but in general we would not enter into 
any specific agreements directly with the VSOs, but they are 
very active in working with us on where the needs do exist.
    Mr. Mast. Very good. And, Mr. Horne, I know you would feel 
left out if you had a round of questioning that somebody did 
not include you. So I wanted to pivot back to you here and get 
a little bit back to FASTA here and whether it would be useful 
to allow GSA to do some short-term leasebacks under FASTA.
    And if you could expound upon that a little bit, that would 
be very helpful.
    Mr. Horne. Yes. So that is something that we consider a 
challenge as we implement FASTA. The Congresswoman mentioned 
moving from one house to another. What we would be looking to 
do is to have the authority to do a short-term leaseback so 
that the Federal tenants and functions are in place until a new 
location is identified.
    Absent the leaseback authority, the only properties that 
may be disposed of using the FASTA authority would be 
properties that were completely vacant.
    I understand there are challenges around that. There are 
scoring rules around that. However, we would be interested in 
having conversations with the committee and OMB on a way 
forward.
    Mr. Mast. Thank you again.
    I yield back, Chairman.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. Johnson for 5 minutes.
    Mr. Johnson of Georgia. Thank you.
    Mr. Horne, before you came today you knew that you were 
going to be asked questions about the Old Trump Hotel lease; 
isn't that correct?
    Mr. Horne. It is.
    Mr. Johnson of Georgia. And you prepared for your testimony 
today; is that not correct?
    Mr. Horne. Yes.
    Mr. Johnson of Georgia. And is it fair to say that you have 
not seen an opinion letter issued by GSA Office of General 
Counsel, the Department of Justice, or the Office of 
Governmental Ethics, or any other legal department, Federal 
legal department, on the issue of whether the President is in 
violation or not in violation of the Trump Hotel lease insofar 
as the Emoluments Clause is concerned?
    You have not seen any opinion letter from any of those 
entities; is that correct?
    Mr. Horne. As it relates to the Emoluments Clause, I have 
not seen any legal opinions.
    Mr. Johnson of Georgia. All right. Thank you.
    Mr. Horne. That would be outside the purview of GSA's 
Office of General Counsel.
    Mr. Johnson of Georgia. OK. I understand. Let me ask you 
this question, sir. You are a career employee with GSA for the 
past 25 years, I think you said.
    Mr. Horne. Yes.
    Mr. Johnson of Georgia. And you take pride in your work; is 
that not correct?
    Mr. Horne. Absolutely.
    Mr. Johnson of Georgia. And you love your career.
    Mr. Horne. Yes.
    Mr. Johnson of Georgia. And you love your job.
    Mr. Horne. Yes.
    Mr. Johnson of Georgia. And you are a member of the GSA 
transition team and the chief GSA liaison with the Trump 
transition team, correct?
    Mr. Horne. Yes.
    Mr. Johnson of Georgia. And, in fact, you were appointed to 
the position of Acting Administrator on the day that the 
President took office, January 20th; is that not correct?
    Mr. Horne. Yes.
    Mr. Johnson of Georgia. And is it not also correct that 7 
hours earlier Norman Dong was appointed to be Acting 
Administrator of the GSA, correct?
    Mr. Horne. Mr. Dong was appointed by the previous 
administration as part of the succession planning so that 
critical positions would have somebody.
    Mr. Johnson of Georgia. I understand. So a mere 7 hours 
after Mr. Dong, who was another career GSA employee, was 
appointed Acting GSA Administrator, you replaced him, correct?
    Mr. Horne. I was asked by the President to serve as the 
Acting Administrator of GSA.
    Mr. Johnson of Georgia. All right. Got you. While you were 
still serving on the transition team, did you at any time 
discuss the issues of the Trump International Hotel or GSA's 
initial position on this matter, which was that the President 
would be in breach of the agreement if he took office?
    Mr. Horne. No.
    Mr. Johnson of Georgia. You never did?
    Mr. Horne. No. I was involved in discussions about----
    Mr. Johnson of Georgia. Well, let me ask you this question 
because my time is running out. Were there any other Trump 
administration, any Trump administration officials or campaign 
officials that you discussed Trump International Hotel with?
    Mr. Horne. Absolutely not. To this day I have not discussed 
the matter with any Trump officials.
    Mr. Johnson of Georgia. So that includes President Trump, 
Ivanka Trump, Eric Trump, and Donald Trump, Jr.?
    Mr. Horne. I have never spoken on this matter or any other 
matter to any one of those individuals.
    Mr. Johnson of Georgia. Have you communicated via emails or 
text messages to any of those individuals about this issue?
    Mr. Horne. No, not this issue or any other issue.
    Mr. Johnson of Georgia. Who has interviewed you for your 
job as Acting GSA Administrator?
    Mr. Horne. I was not interviewed. I am proud of the work 
that I did with the transition.
    Mr. Johnson of Georgia. Well, let me ask you this question. 
Was any member of the President's family involved in any way in 
your appointment as Acting GSA Commissioner?
    Mr. Horne. Not to my knowledge.
    Mr. Johnson of Georgia. Was anyone involved with the Trump 
Organization involved in any way in your appointment as Acting 
Commissioner?
    Mr. Horne. No.
    Mr. Johnson of Georgia. And was the disposition of the 
Trump Hotel discussed in any interview that you held for this 
position?
    Mr. Horne. I was not interviewed for the position, and have 
not discussed the hotel project with any member of the 
President's family. Again, I have never spoken to the President 
or any of his family.
    Mr. Johnson of Georgia. All right. Thank you. Good enough.
    Has any White House official directed you not to respond to 
inquiries from Members of Congress regarding the Trump 
International Hotel issue?
    Mr. Horne. Not specifically to this issue. However, we have 
received a policy that says on matter of oversight we will 
respond to committee requests, not individual Member requests.
    Mr. Johnson of Georgia. OK. Has the Trump administration 
provided you with any direction on how to handle inquiries from 
the Democrats on the Transportation and Infrastructure 
Committee about the Trump International Hotel lease?
    Mr. Horne. No.
    Mr. Johnson of Georgia. And with that, Mr. Chair, I will 
ask unanimous consent to include in the record the November 11, 
2016, email from Kevin Terry. That email referenced the 
BuzzFeed article about the, quote, ``fair amount of nonsense'' 
assessment by Kevin Terry. So Kevin Terry's November 11th 
email.
    Also, the BuzzFeed article that discusses that comment by 
Mr. Terry along with the letter from the contracting officer, 
dated March 23rd, which is from Mr. Terry, which is his opinion 
about Trump's compliance with the lease.
    I would ask unanimous consent to include those in the 
record.
    Mr. Barletta. So noted.
    Mr. Johnson of Georgia. And also the Jared Kushner recusal, 
the letter that memorializes Jared Kushner's recusal offer.
    Mr. Barletta. So noted.
    The Chair recognizes Mr. Nadler for 5 minutes.
    Mr. Nadler. Thank you.
    Mr. Horne, you have stated repeatedly that the contracting 
officer made the decision that the lease was in compliance with 
the Emoluments Clause and with all necessary legal things, 
correct?
    Mr. Horne. I said that the contracting officer made the 
determination that the tenant remains in full compliance with 
the terms and conditions of the lease.
    Mr. Nadler. OK. And this was based in part at least on a 
written opinion, on written advice from legal counsel?
    Mr. Horne. I do not know if it was written advice. I know 
that there were multiple meetings where multiple GSA lawyers 
participated in conversations about----
    Mr. Nadler. Excuse me.
    Mr. Horne [continuing]. The proposed ownership structure.
    Mr. Nadler. Mr. Horne, GSA has told us it was written 
advice. So someone in your operation knows that it is written 
advice and has told us that.
    So my question is: can we get a copy of that written 
advice?
    Mr. Horne. We are committed to working with the committee.
    Mr. Nadler. I did not ask that. I said: can we get a copy 
of that written advice? I am requesting that right now.
    Mr. Horne. We are committed to working with the committee 
to provide----
    Mr. Nadler. Can you give me a yes or no answer? My request 
and the request of the ranking member, I assume: will you give 
us a copy of that written advice, assuming it exists?
    Mr. Horne. We will provide all materials associated with 
this project when requested by the committee.
    Mr. Nadler. By which you mean by the committee chairman?
    Mr. Horne. Yes.
    Mr. Nadler. Or his staff. So, in other words, the answer 
is, no, you will not give it to us unless the committee 
chairman requests it because you are ignoring the minority 
party.
    Mr. Horne. We are complying with the administration----
    Mr. Nadler. You are complying with the order to ignore the 
minority party.
    Now, Mr. Chairman, or rather, Mr. Horne, our staff has 
learned that Mr. Kushner has held discussions regarding 
candidates for the permanent Administrator position. We have 
also learned he has been engaged in selecting the FASTA Board.
    How is this activity consistent with his recusal from Old 
Post Office matters, considering the OPO lease is one of the 
highest profile matters in GSA's portfolio?
    Mr. Horne. I am not aware of Mr. Kushner's role at the 
White House.
    Mr. Nadler. OK. Let me rephrase the question. Assuming he 
has that role, that he is involved in screening or interviewing 
candidates for the permanent Administrator position, would this 
be a violation of his recusal?
    Mr. Horne. I am not going to speculate.
    Mr. Nadler. I'm not asking you for speculation. I am saying 
if that is true, would this be.
    Mr. Horne. I am not going to comment on hypotheticals.
    Mr. Nadler. OK. Now, you said in answer to a question 
before that you did not get monthly statements. You only got 
annual statements.
    Mr. Horne. I said that I am not aware of monthly 
statements. I am aware that there is a requirement for an 
annual report that will decide what the profit-sharing 
arrangement will be.
    If there are monthly reports, I have not seen them.
    Mr. Nadler. You are not aware of monthly----
    Mr. Horne. Which is consistent with my approach to this 
entire project, that it is the contracting officer's job.
    Mr. Nadler. All right. You are not aware of a requirement 
for monthly statements that would give the same information as 
you just mentioned.
    Mr. Horne. Correct.
    Mr. Nadler. OK. Section 5.3 of the lease requires that 
monthly statement. Shall I read the whole thing to you?
    Mr. Horne. Sure.
    Mr. Nadler. Well, I am going to read only part of it 
because it is lengthy. ``Tenant will furnish Landlord on or 
before the 45th day after the end of each calendar month the 
following items, accompanied by a certificate of the Chief 
Financial Officer of Tenant certifying that such items are 
true,'' et cetera, et cetera, ``monthly and year-to-date 
statements of income, expenses on an accrual basis,'' et 
cetera, et cetera. I can give you the rest of it.
    Mr. Horne. OK.
    Mr. Nadler. This requires the monthly statement that you 
said you did not know existed. So my question is: what will you 
do to make sure (a) that the monthly statements are being filed 
and then to answer the questions that you have received from 
members of the committee regarding information that would 
appear on that monthly statement?
    Mr. Horne. So I will go back, work with the leadership of 
the Public Buildings Service to make sure that monthly 
statements as required by the lease are being received from the 
tenant, and once again, we are committed to providing 
information about this project to the committee.
    Mr. Nadler. And are you committed to making those monthly 
statements available to members of the committee?
    Mr. Horne. We are committed to responding to requests from 
the committee for information.
    Mr. Nadler. OK. So once again you are saying the answer is 
no unless the Republican leadership of the committee wants and, 
and as long as the coverup is being continued, we are not going 
to see that information. That is what you are saying.
    Mr. Horne. I am saying that we will comply with the 
administration's policy and the----
    Mr. Nadler. OK. And the administration's policy is that, as 
you have acknowledged it, is that minority members of the 
committee are entitled to no information and, therefore, they 
can continue the coverup.
    I yield back, and I thank you.
    Mr. Barletta. Thank you.
    That concludes our questions to the panel. Again, I want to 
thank you all for your testimony. Your comments have been 
helpful to today's discussion. Thank you.
    On our second panel we will have Mr. Richard W. Painter, 
Professor of Law.
    I ask unanimous consent that our witness' full statement be 
included in the record.
    Without objection, so ordered.
    Mr. Barletta. For our witness, since your written testimony 
has been made a part of the record, the subcommittee would 
request that you limit your oral testimony to 5 minutes.
    Professor Painter, if you are ready, you may proceed.

       TESTIMONY OF RICHARD W. PAINTER, PROFESSOR OF LAW

    Mr. Painter. Thank you, Mr. Chairman, ranking member and 
members of the committee.
    I am a law professor at the University of Minnesota Law 
School. I was previously the chief White House ethics lawyer 
and Associate Counsel to the President for President George W. 
Bush.
    I also serve as the vice chair for Citizens for 
Responsibility and Ethics in Washington. I was a founding 
member of another organization called Take Back our Republic, a 
founding director of that organization. I am still a director 
of Take Back our Republic. It is an organization of political 
conservatives and libertarians who are committed to reforming 
our campaign finance system.
    I should emphasize here that I, like everyone else in the 
room, have a financial interest in the subject matter of this 
hearing. I am a taxpayer. I pay tens of thousands of dollars in 
taxes every year, some years over $100,000 of taxes. I have 
quite consistently supported for public office persons of both 
political parties who I believe will reduce the size of 
Government, increase the efficiency of Government, and reduce 
the burden of taxation on the American people.
    The legislation we are talking about today, the Federal 
Assets Sale and Transfer Act, FASTA, involves the sale over 6 
years, I believe, of up to $8 billion worth of Federal 
property, and I hope these transactions can be carried out in a 
manner that maximizes the return for the taxpayer and is 
without conflicts of interest for the Government officials who 
are involved in the transactions.
    I spent about the past 30 years of my career focusing on 
conflicts of interest, conflicts of interest in corporations 
and partnerships, in business law, conflicts of interest in 
Government, and I want to emphasize that conflicts of interest 
have consequences.
    Mr. Chairman, you referred to the businesses of Presidents 
Washington and Jefferson and other Presidents. President Trump 
has referred to those businesses as well and that Presidents 
Washington and Jefferson visited their plantations when they 
left the Capitol.
    Presidents Washington and Jefferson were great Presidents, 
did a lot to make this country great, but those businesses 
involved conflicts of interest that were amongst the most 
tragic conflicts of interest for our country. The assets of 
those businesses included human beings who were held against 
their will, forced into labor, and in some situations to 
perform sexual services for overseers and others in the 
plantations. This was a very tragic conflict of interest that 
resulted ultimately in a Civil War in which half a million 
Americans lost their lives and, of course, the difficulties we 
have in race relations in this country to this day.
    So conflicts of interest in Government have consequences. 
When the President, leading Members of the House and the Senate 
own businesses, such as those plantations, and then make 
decisions about issues, such as in that case, the slavery 
question, those decisions have consequences.
    Turning to the present day, conflicts of interest for 
Government officials cannot be allowed to be present in any of 
the transactions by the United States Government concerning 
Government property, and that is critically important, whether 
the transaction is with the President of the United States or 
members of the family of the President, Members of Congress or 
any other Government official.
    How do we address conflicts of interest? Well, there are 
two approaches that I emphasize in the corporation and 
securities law classes that I teach. One is a categorical ban 
on transactions between the fiduciary who is making decisions 
in a fiduciary context and himself. You do not allow the same 
person to stand on both sides of the transaction.
    That is the way trust law works. That is the way I think 
the Government law should work with respect to Government 
property and the disposition of Government property. The same 
person does not stand on both sides of the transaction. That 
should be prohibited.
    There are other ways to deal with it, and I am happy to 
discuss that. I am happy to discuss in answers to your 
questions my views on the lease at the Old Post Office or other 
transactions to the extent I am familiar with the context of 
those transactions.
    But I want to emphasize how critically important it is that 
we address conflicts of interest that the public, that the 
taxpayer, people in my situation having to send that check in 
every year to the IRS, and I usually owe money. Yes, I will 
admit it, that we are confident that Members of Congress and 
other elected officials are not simply helping themselves; that 
the Government is not going into transactions with private real 
estate developers who then after the deal is closed cut in 
Members of Congress or other Government officials to get a 
piece of the action; that when people are prohibited from 
receiving the benefits of a lease under the terms of the lease, 
that someone does not just go set up a shell corporation or a 
trust or some other entity that receives it for them; that 
those of you who are charged with the fiduciary obligation of 
watching over our taxpayer money are spending it wisely, but 
that you also are living up to the spirit of the law, not just 
the letter of the law.
    You can find an expert, a lawyer, who will tell you what 
you want to hear, but I will emphasize. Please, Mr. Chairman, 
members of the committee, look at us, the taxpayers. Do what is 
right. Do what is right for our country.
    Thank you.
    Mr. Barletta. Thank you for your testimony, Professor 
Painter.
    I want to enter into the record a DOJ opinion indicating 
conflict laws do not apply or did not apply to Vice President 
Rockefeller with his vast businesses. Subsequently, Congress 
amended the law to explicitly exempt the President and Vice 
President.
    I will now begin the first round of questions limited to 5 
minutes for each Member.
    Mr. Painter, FASTA requires properties be sold to the 
highest bidder getting the maximum return to the taxpayer. That 
number is driven up the more bidders that there are. You are 
not suggesting that a lower return is OK so long as we ensure 
no winning bidder has a connection to a Government official, 
are you?
    Mr. Painter. What I am suggesting, firstly, we deal with 
different types of transactions. One is sale and the other is 
lease. When you sell the property, usually there is no further 
relationship between the seller and the buyer. If there is, it 
is nowhere near as significant an ongoing relationship as you 
have in the case of a lease.
    When you sell a property, you need to make sure at the time 
of the sale it is a fair transaction. If you are admitting into 
the bidding process a United States Government official, you 
could do that, but you have to make absolutely sure that the 
bidding process is fair, and it is designed to get the absolute 
highest price.
    With respect to leases though, it is a very different 
situation because that is an ongoing relationship. So it is not 
just what happens at the inception of the lease. You have 
ongoing enforcement issues and a range of different issues over 
the course of a lease.
    So I think that bringing in United States Government 
officials is highly likely to reduce the return to the 
taxpayer. There are not a lot of situations where United States 
Government officials are interested in leasing or buying 
Government property. I believe the GSA Administrator was not 
aware at least of previous Presidents and I do not believe of 
other officials who wanted to do that.
    I think the risks far outweigh the benefits, particularly 
in the concept of a lease.
    Mr. Barletta. What is not clear from your testimony is 
whether you are offering your opinion on what the law should be 
or whether you are stating your opinion on what the law 
actually is.
    A number of points you make would mean that George 
Washington himself acted unethically. Ultimately the goal is 
getting the best return for the taxpayer. Should that not be 
this goal?
    Mr. Painter. I am saying that George Washington, I did say 
that George Washington, Thomas Jefferson and others violated, I 
believe, the laws of God and what was set forth in the 
Declaration of Independence with respect to their businesses.
    And I am offended as a taxpayer when those businesses are 
mentioned in public discourse as if somehow those conflicts of 
interest were OK. They cost our country a great deal.
    Yes, it was unethical, and I am willing to say that to you, 
Mr. Chairman.
    Mr. Barletta. Are you stating your opinion or what the law 
actually is? Did George Washington violate the law?
    Mr. Painter. He violated the laws of God, and I will say 
that to you, Mr. Chairman. Slavery was wrong, and it was a 
conflict of interest that resulted in that question not being 
addressed at the inception of this Nation, a conflict of 
interest not only of George Washington and Thomas Jefferson, 
but Members of the House and the Senate.
    Conflicts of interest have consequences. It was unethical. 
It was wrong, and there is a higher law beyond that which is 
written in the statute books. The law, the specific law from 
which the President is exempt is one statute, 18 United States 
Code 208. There are other statutes, plenty of them, to which 
the President is bound.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. DeFazio for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Painter, I think you were here earlier when we had some 
discussion of section 37.19, ``no member or delegate to 
Congress, or elected official of the Government of the United 
States or the Government of the District of Columbia, shall be 
admitted to any share or part of this Lease, or to any benefit 
that may arise therefrom.''
    The chairman has mentioned some opinion pieces and articles 
that have been written regarding this. Do you want to opine a 
bit?
    I mean, we have the ``shall be admitted'' part, but then we 
have ``or to any benefit that may arise therefrom.'' They are 
separate clauses, correct?
    Mr. Painter. Well, yes. The question here is whether you 
want to interpret the lease as the landlord to accomplish the 
purpose that you were seeking to accomplish through that 
provision. When you say no employee of the Government shall be 
admitted to a share of the lease, do you really want to allow a 
real estate developer who is a private real estate developer to 
enter into the lease, and then the minute the lease is signed 
walk out the door and bring Members of Congress in to share in 
the proceeds?
    Does that not undermine the entire purpose, which is to 
avoid Government officials being on both sides of the lease, 
whether it is the President of the United States or Members of 
Congress?
    I do not understand how that interpretation of the lease 
makes any sense in light of the purpose of the lease. If that 
interpretation is correct, that language dies upon the signing 
of the lease and that subsequently Members of Congress, other 
Government officials can be given a piece of the lease, or if 
the tenant becomes an elected official, they can just hold onto 
the lease, if that is true, then whoever drafted that lease was 
a fool because it does not accomplish the purpose, which is to 
make sure that Government officials are not standing on both 
sides of the transactions.
    So we can bring in lawyers and you can always bring in a 
lawyer who will tell you this is a reasonable interpretation 
and so forth, but it makes no sense.
    And so if that is the proper interpretation, whoever 
drafted that lease for the Government should not be working for 
the Government.
    Mr. DeFazio. Well, there are certainly some questions about 
that. But, again, I would rely on the second part, ``or to any 
benefit that may arise therefrom.'' If you just omit the first 
part, that would take care of the issue you are opining about, 
which is subsequent benefit to an elected official.
    Mr. Painter. I would think so. I mean, the way I understand 
that language is you cannot bring in a subsequent elected 
official or the real estate developer cannot go out and bring 
in current Government officials. That is not the way it works. 
It does not make any sense for it to work that way.
    I do not understand the plain language to say that, and 
that is, by the way, only one of the issues. The other issue is 
whether you can somehow dodge this by saying, ``Well, the money 
does not go to me. It goes to a trust for my benefit,'' or, 
``it is going to increase my wealth later.''
    I mean, we are talking about Government officials who have 
billions of dollars. They do not need to spend all of the money 
today. We do not say, ``Well, you cannot receive the money, but 
you can set up a shell corporation to receive the money,'' you 
know, or a trust to receive the money. That is the kind of off 
balance sheet financing Enron was doing.
    You set up a bunch of special purpose entities to do things 
you yourself cannot do, and I have taught plenty to that over 
the years. And I know lawyers who play that game, and lawyers 
will sign off on that game, and that is why we have had some of 
the corporate messes we have.
    But at least can we have the United States Government deal 
straightforwardly and honestly with the American people? If the 
President cannot take the money, neither can a trust of which 
the President is a principal beneficiary.
    Mr. DeFazio. Thank you. Thank you for your testimony.
    Thank you, Mr. Chairman.
    Mr. Barletta. Thank you.
    And, again, I want to say that the Congress has explicitly 
exempted the President and Vice President from conflicts of 
interest laws.
    Mr. Painter. That one statute, I believe, 208. Is there 
another one?
    Mr. Barletta. The Chair now recognizes Mr. Johnson for 5 
minutes.
    Mr. Johnson of Georgia. Yes, thank you, Professor Painter, 
for being here today.
    You heard the testimony from the Acting Administrator today 
that he is the hand-picked Acting Administrator. You have heard 
from him that he loves his job. He wants to continue. He has 
got 25 years in. I guess he will probably retire at 30, and 
certainly being at the Acting Administrator, at the top of the 
heap, he is making a lot of money at the top end of the 
schedule, and human nature, you know, causes you to want to 
maintain that status as an employee.
    And you have heard that GSA is not collecting the kinds of 
information, financial information, that would enable it to 
adequately scrutinize this Trump lease and the revenues flowing 
therefrom.
    You have heard testimony that perhaps there is no mechanism 
in place for generating reports about any foreign government or 
foreign actor spending at the Trump Hotel, and you know the 
ramifications and implications of what that means in terms of 
foreign actors impacting U.S. policy through spending money at 
the Trump Hotel.
    And you have also heard testimony that high-level Trump 
family members and also those serving in high levels in the 
Trump administration are not recused from dealing with the GSA 
insofar as the Trump Hotel is concerned, and you have heard 
that there are no legal opinions that have been rendered, or at 
least we have not had any evidence of any legal opinions being 
rendered about the compliance with President Trump with this 
lease.
    And so having heard all of those things, what is your 
opinion about what actions GSA should take to shield the Acting 
GSA Administrator, along with the contracting officer and 
others who are associated with administering this lease? What 
actions do you think GSA should take to protect those officials 
from undue influence with respect to the lessee who is the 
President of the United States?
    Mr. Painter. Well, first I should disclose it is probably 
commonly known that I am counsel to Citizens for Responsibility 
and Ethics in Washington in a case pending in the Southern 
District of New York against the President in his official 
capacity with respect to not just the payments at the hotel, 
but payments from foreign governments in violation of the 
Emoluments Clause of the Constitution. The Justice Department 
is defending the President in that litigation.
    I think with respect to GSA, the one thing that they can do 
that I would like to see a lot more of here, in addition to 
strictly construing the terms of the lease to protect the 
taxpayer, not the President, but the second thing is 
transparency.
    It is critically important that information about this 
lease and other leases, including this $8 billion worth of 
leases, but I have no confidence--not just leases, but sales 
and whatever is going to happen with this property that is 
going to be sold in the next 6 years pursuant to this statute 
of FASTA--I have no confidence that there is not going to be 
just a lot of self-dealing, whether it is Government officials 
or campaign contributors or someone else.
    And if we want confidence, public confidence in this 
Government and in GSA, they need to be transparent. They need 
to disclose the relevant documents for transactions that 
Members of Congress are interested in, and that means Members 
of Congress of both parties.
    I don't know what happened during the first 2 years of the 
Obama administration when the Democrats controlled the House 
and the Senate. I do not know what the practice was, but I will 
tell you what it should have been, and that is that if the 
Republicans wanted documents from that administration, they 
should have been delivered here, and the same with the 
Democrats today.
    We don't have one-party oversight of the executive branch, 
particularly not by the President's party, and I have got to 
say this. I have been a Republican for 30 years. That is not a 
very good way for any political party to stay in power.
    We need dual oversight, both Democrats and Republicans 
working together. So if you want a document as ranking member, 
you work with the chairman. Those documents should be delivered 
to this committee by GSA, and then we have the transparency 
that we as taxpayers feel that we need, both parties overseeing 
the executive branch, not just the President's party.
    Mr. Barletta. Thank you.
    Mr. DeFazio. Mr. Chairman, I have a point of personal 
privilege.
    Mr. Barletta. OK.
    Mr. DeFazio. I am certain the chairman is not aware of 
this, and I am sure it is some zealous little twerp working for 
the committee, but I have just been made witness to the fact 
that the livestreaming has been edited, and significant 
portions of my remarks were edited out, and Mr. Nadler's 
remarks were edited out, and I find this extraordinary, and if 
there is not an immediate resolution to this issue, I will be 
taking this issue to the floor of the House of Representatives 
as a point of personal privilege.
    I mean, this is unbelievable. I mean, what have you got to 
hide that you cannot even put our damn questions to a 
Government official online and you have to cut us out?
    Mr. Barletta. The chairman is not aware of it. We will 
check into it. If there is a technical problem, it will be 
checked out.
    Mr. DeFazio. It was not technical, Mr. Chairman. This was 
editing.
    Mr. Barletta. The Chair is not aware, but we will check it 
out.
    Mr. DeFazio. I suspected that you were not, but it is going 
on.
    Mr. Barletta. The Chair now recognizes Mr. Nadler for 5 
minutes.
    Mr. Nadler. Thank you.
    I am glad to hear the Chair will check this out. I hope to 
hear the Chair say that it is unacceptable and will be 
corrected.
    Mr. Barletta. I have no evidence that it was done 
intentionally. So we will check it out, but that is your 
answer.
    Mr. Nadler. OK. Mr. Painter or Professor Painter, I should 
say, between October 1st and March 31st, lobbyists working on 
behalf of the Kingdom of Saudi Arabia spent $270,000 on rooms, 
catering and parking at the Trump International Hotel.
    In December of last year, Bahraini diplomats moved the 
country's National Day festivities to the hotel's ballroom, 
December, after the election.
    In February, Kuwait moved its annual gala from the Four 
Seasons to Trump International.
    Now, first, is it appropriate for the GSA to maintain a 
lease that allows foreign governments to make payments that 
directly benefit a Government official, as is the case here?
    Mr. Painter. Well, this is the subject matter of the 
litigation by CREW [Citizens for Responsibility and Ethics in 
Washington], and there are other cases pending, one by Members 
of Congress against the President, one by the Attorney General 
of Maryland and the District of Columbia against the President 
with respect to the Emoluments Clause of the Constitution.
    I mean, this is the most fundamental conflict of interest 
that was contemplated by the Founders. As I said, they were not 
very good at identifying their own conflicts of interest with 
respect to the slave labor, but they were well aware of the 
conflict of interest of other governments trying to influence 
the United States Government by buying off Government 
officials.
    So they had a categorical ban on emoluments and presents, 
and that is emoluments and presents, not just presents, which 
are value-added transactions, but emoluments as profits or 
benefits going to a United States Government official from a 
foreign government or entity controlled by a foreign 
government.
    And I know the Justice Department is arguing for a narrower 
interpretation of the Emoluments Clause to only apply to 
payments received in connection with an office that you have, 
as if somehow the only concern is whether the President or some 
other official is two-timing the Government by having an office 
overseas as well as here. I do not think that was the Founders' 
point.
    And so I believe that these payments, in addition to other 
payments that are received by the Trump business empire, are in 
violation of the Emoluments Clause.
    You know, the question of what GSA can do about that when 
the Justice Department is taking a different position on behalf 
of the President is a difficult one, but I am firmly convinced 
that payments from foreign governments and entities controlled 
by foreign governments that go into a business owned by the 
President or any other Government official are in violation of 
the Emoluments Clause.
    That provision is in the Constitution for a reason, because 
these European governments were busy bribing the English House 
of Commons, and by the way, Russia was busy doing all sorts of 
strange things.
    Mr. Nadler. And the President of England or France at one 
point was on the payroll of the other. I forget which way.
    Mr. Painter. Oh, yes.
    Mr. Nadler. Let's not get into that.
    Mr. Painter. Yes, right.
    Mr. Nadler. Let me just ask you: if the Emoluments Clause 
did not exist, this would still be a violation of straight 
conflict of interest principles?
    Mr. Painter. Well, I think that we have the broader 
problem, not just with respect to foreign governments but 
lobbyists who, of course, have been generous with their 
campaign contributions to both parties, one serious conflict of 
interest, but now we have compounded that by the fact that what 
they do is they rent out a ballroom at the Trump Hotel, the 
money goes to the President's business, and then every lobbyist 
shows up there, but members of the administration are much more 
likely to go to a party at the Trump Hotel than another hotel.
    Mr. Nadler. So your answer is yes?
    Mr. Painter. Absolutely, yes.
    Mr. Nadler. Thank you.
    Mr. Painter. It is very profitable.
    Mr. Nadler. I only have 1 minute left.
    Does the payment from a foreign government for services 
rendered by a business owned by the President, and I think you 
have answered this, constitute a violation of the Emoluments 
Clause?
    You would say yes, obviously.
    Mr. Painter. Yes.
    Mr. Nadler. And does the current ownership and control 
structure of the OPO lease absolve the President of any such 
violation?
    Mr. Painter. I do not think it absolves, no, sir. You focus 
on follow the money. I mean, that is what I have been doing as 
a corporate securities lawyer for 25, 30 years. You focus on 
where is the economic benefit going to.
    You can create all sorts of shell entities and trusts and 
the rest of it, and the lawyers are good at doing that, but you 
have got to focus on where is the money going. Where is the 
economic value?
    Mr. Nadler. Thank you.
    Mr. Painter. We get all caught up in those entities. That 
is what happened in Enron, and that is not the way to run the 
United States.
    Mr. Nadler. Thank you.
    My last question for 23 seconds is you are the vice 
president or president of CREW, the Committee for 
Responsibility and Ethics in Washington.
    Mr. Painter. Yes.
    Mr. Nadler. I have often seen it referred to in the 
newspapers as a liberal group or left-leaning group. You do not 
sound like you are a liberal or left-leaning person with your 
Republican background. Would you consider that an accurate 
characterization of CREW?
    Mr. Painter. No. I am not a liberal. This is not a liberal 
or conservative issue. This is about responsibility in 
Government and how our money, our taxpayer money is used, and I 
think this is why taxes are so high in this country. There are 
a lot of conflicts of interest, and there is a lot of waste, 
and we do not now have the President of the United States 
setting a good example. I think it is atrocious.
    Mr. Nadler. Thank you.
    I yield back.
    Mr. Barletta. Thank you.
    Thank you, Mr. Painter, for your testimony.
    This concludes our hearing. If Members have any further 
questions, they can be submitted for the record.
    I would like to submit for the record a statement provided 
by the Associated General Contractors of America detailing the 
importance of implementing FASTA.
    Without objection, so ordered.
    I would ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today.
    If no other Members have anything to add, this subcommittee 
stands adjourned.
    [Whereupon, at 12:24 p.m., the subcommittee was adjourned.]


Witnesses' Prepared Statements and Responses to Post-Hearing Questions 
                             for the Record

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


             Submissions for the Record From Hon. Barletta

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 <F-dash>
Report, ``The Foreign Emoluments Clause and the Chief Executive,'' No. 
 2017-12, June 2017, by Andy S. Grewal, University of Iowa, College of 
             Law, Submitted for the Record by Hon. Barletta
    [This report is retained in committee files and is available at 
https://ssrn.com/abstract=2902391.]

                                 <F-dash>
  Article, ``Business Transactions and President Trump's `Emoluments' 
  Problem,'' by Seth Barrett Tillman, Harvard Journal of Law & Public 
   Policy, Vol. 40, No. 3, Submitted for the Record by Hon. Barletta
    [This article is retained in committee files and is available at 
https://ssrn.com/abstract=2957162.]

                                 <F-dash>
  Letter of September 16, 1974, from Hon. Howard W. Cannon, Chairman, 
 U.S. Senate Committee on Rules and Administration, to Hon. William B. 
   Saxbe, Attorney General of the United States, U.S. Department of 
           Justice, Submitted for the Record by Hon. Barletta
                                  AND
Response letter of September 20, 1974, from Hon. Laurence H. Silberman, 
Acting Attorney General, U.S. Department of Justice, to Hon. Howard W. 
 Cannon, Chairman, U.S. Senate Committee on Rules and Administration, 
               Submitted for the Record by Hon. Barletta
    [These letters are retained in committee files.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


     Submissions for the Record From Hon. Johnson, Jr., of Georgia

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <F-dash>
Letter and exhibits of March 23, 2017, from Kevin M. Terry, Contracting 
Officer, U.S. General Services Administration, to Donald J. Trump, Jr., 
         Trump Old Post Office LLC, c/o the Trump Organization
    [These materials are retained in committee files.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                    
</pre></body></html>
